<html>
<title> - THE ATTEMPTED COUP IN MONTENEGRO AND MALIGN RUSSIAN INFLUENCE IN EUROPE</title>
<body><pre>[Senate Hearing 115-459]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-459

THE ATTEMPTED COUP IN MONTENEGRO AND MALIGN RUSSIAN INFLUENCE IN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available via the World Wide Web: http://www.govinfo.gov/
       
     
                                 __________
                                           

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-738 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd9a8d92bd9e888e899598918dd39e9290d3">[email&#160;protected]</a>                        


                      COMMITTEE ON ARMED SERVICES
                      
 JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director

                                  (ii)

  


                         C O N T E N T S

_________________________________________________________________

                             July 13, 2017

                                                                   Page

The Attempted Coup in Montenegro and Malign Russian Influence in      1
  Europe.

Kaludjerovic, His Excellency Nebojsa, Ambassador of Montenegro to     1
  the United States.
Bugajski, Janusz, Senior Fellow, Center for European Policy          10
  Analysis.
Samp, Lisa Sawyer, Senior Fellow, International Security Program,    15
  Center for Strategic and International Studies.
Wilson, Damon, Executive Vice President, The Atlantic Council....    23

                                 (iii)

 
THE ATTEMPTED COUP IN MONTENEGRO AND MALIGN RUSSIAN INFLUENCE IN EUROPE

                              ----------                              


                        THURSDAY, JULY 13, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Rounds, Ernst, Sullivan, Perdue, Strange, Reed, 
Nelson, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    The Senate Armed Services Committee meets this morning to 
receive testimony on the attempted coup in Montenegro and 
malign Russian influence in Europe.
    Before we continue with the usual proceedings of the 
hearing, I am pleased to welcome to the committee Montenegro's 
Ambassador to the United States who will present an official 
statement to the committee on behalf of the Government of 
Montenegro. Mr. Ambassador, we are honored to have you here 
with us this morning. Please proceed.

STATEMENT OF HIS EXCELLENCY NEBOJSA KALUDJEROVIC, AMBASSADOR OF 
                MONTENEGRO TO THE UNITED STATES

    Ambassador Kaludjerovic. Thank you very much, Mr. Chairman, 
Senator McCain, Ranking Member Reed, distinguished members of 
the committee. I wish to thank you for the opportunity to 
address you today on behalf of my government, and I extend 
especially our appreciation for the committee's hearing on this 
important topic. Your interest and dedication to the issue of 
security in Europe, the Western Balkans, and Montenegro in this 
case, amid the ongoing challenges we are all facing is a 
considerable contribution in itself to the valued support of 
the United States to our region towards its future as a full 
part of the Euro-Atlantic community.
    We are talking today about one serious destabilizing 
scenario orchestrated from the outside that fortunately never 
materialized in Montenegro on the eve of the parliamentary 
elections that took place in October last year. The plot in 
question, which virtually amounted to a coup d'etat, now 
subject of a trial in front of courts in Montenegro, consisted 
of planned terrorist attacks to overthrow the legitimately 
elected government and to illegally detain or even assassinate 
the Prime Minister. In the worst case scenario, if the plans 
had succeeded, there would have been chaos and serious violence 
and extremely dangerous instability with intention to undermine 
the constitutional order and institutions of Montenegro. This 
would also have been a derailment of the progress of Montenegro 
and the entire region towards NATO and EU integration, which 
was a presumed motive for carrying out the entire plot.
    At this moment, the public trial is ongoing, following 
months of investigation. The Special Chief Prosecutor in charge 
of the case has publicly stated that the evidence in this case 
is ``undisputable and ironclad.''
    Indictments that include two Russian nationals--evidence 
points to that, that they were members of military intelligence 
services--as well as two leading politicians and MPs [Members 
of Parliment] from the opposition party, Democratic Front, for 
conspiracy to form a criminal organization and attempt at 
terrorist attacks, as well as the acts against the 
constitutional order and public safety. Nine people so far have 
admitted their guilt via the plea bargain mechanism. Their 
confessions were included in the indictment. The witnesses 
identified one of the Russian nationals, former Deputy Military 
Attache of Russian Federation in Poland, who was declared 
persona non grata in that country for acts of espionage, as the 
organizer of the plot.
    The involvement of Russian nationals is undisputed and 
Montenegrin authorities are waiting for the feedback from the 
Russian authorities, which acknowledged the requests, regarding 
the questions on the involvement of these nationals and their 
role in the events. By the way, so far, Russian authorities 
have informed us that one of the other suspects, who is not a 
Russian national but is currently at large in Russia, is being 
subjected to pre-extradition background checks following a 
request for the extradition by the Ministry of Justice of 
Montenegro. This suspect, by the way, is also banned from 
traveling outside the territory of Russia.
    Had the plot in October succeeded, the instability would 
have been created not only within Montenegro's boundaries, but 
would, for sure, have had a spillover effect in a region that 
is still not on a fully irreversible path to stability. 
Gratefully, the opposite the happened. First of all, 
Montenegrin citizens, once again like at every election since 
restoring our independence in 2006, have elected pro-NATO 
[North Atlantic Treaty Organization] and pro-European 
Government.
    As we all know, Montenegro joined NATO on June 5th this 
year, and another spillover effect happened but a positive one. 
The example of another Western Balkans, or Southeast European, 
country joining the Euro-Atlantic institutions is immeasurable. 
It will create a long-term positive effect, offer motivation 
and encouragement to other aspirants from the region for EU 
[European Union] and NATO membership, that the prospective of 
membership in these organizations is alive based on merits, 
standards and values. No better example could have been given 
to our region.
    Aside from the outcome of this particular matter, Russia's 
view on NATO enlargement and the accession of its 29th member 
is not a secret, nor is their support to the opposition parties 
and actors in Montenegro that are against NATO membership. 
Leading to the elections in October, there was a well-organized 
and financed public campaign to that effect. But these 
influences Montenegro experienced before, during, and after 
elections is not an isolated fact but a pattern based on 
notions that the facts on the ground could be changed. 
Membership of Montenegro to NATO is often perceived by some 
high level Russian officials as a temporary setback through the 
false narrative that NATO does not have support in Montenegro, 
et cetera. Therefore, we expect a continuation of pressure both 
aimed at Montenegro and at the region, especially those 
countries that have not yet become members of NATO or the 
European Union.
    I wish to point out that Montenegro has been able to 
succeed in achieving its goals in becoming a member of NATO and 
a frontrunner in EU accession by working very hard over the 
past decade with friends and partners like the United States. 
This is an alliance based on values, and that is why it 
succeeds. The reforms, helped bilaterally by the United States, 
part of achieving NATO and EU standards, made our society 
better and firmly on a right path.
    After all, it was thanks to those reforms aimed at 
strengthening the capacities and independence of institutions 
to uphold the rule of law that helped those very institutions 
to tackle such a challenge we are talking about today that 
would put to test much more established democracies than ours.
    Where we did not have capacities ourselves, considering 
that the attempts were multifaceted, involving propaganda and 
cyberattacks, we were able to ask our partners in NATO or 
bilaterally like the U.S. for assistance. As an ally, we will 
work together with the Alliance on the capacities to address 
new challenges like these.
    We had and do have a right to determine our alliances and 
our future, which we have always been clear about, as our 
decisions are based on our strategic visions and goals not 
against anybody or anything. Montenegro does not pose any sort 
of threat to Russia and wants to be engaged in conversation, in 
dialogue, and not in confrontation.
    Montenegro in NATO can only mean peace and stability, and 
expansion of the area of welfare, regional cooperation, and 
good neighborly relations.
    Distinguished members of the committee, what should be 
done?
    The United States role in Europe is extremely valuable and 
necessary. The commitment to the vision of Europe whole, free, 
and at peace is as relevant today as it was before. The United 
States and its European partners should continue to reaffirm at 
every opportunity the value of transatlantic bond, NATO, and 
article 5 commitment, as President Trump reinforced that 
valuable message in Poland a few days ago. As to the Western 
Balkans, it is crucial to keep countering trends that seems to 
encourage the countries or actors in the region to find 
alternatives to the Euro-Atlantic integration and full 
embracement of values and standards that they bring.
    We are thankful and grateful for the U.S. support to our 
NATO membership, as well as the increasing focus on the
    Western Balkans issues. The support by the U.S. Congress--
and the Senate has been a particular champion--is very welcome 
and needed, as well as from the U.S. Administration.
    The upcoming visit to Montenegro by Vice President Pence is 
a strong message that the United States is focused on Europe 
and an opportunity to show continuous support to the stability 
and security of the Western Balkans region by supporting a 
clear perspective of membership both in NATO and EU as the best 
way to achieve those goals.
    On our side, Montenegro will continue to spread the area of 
stability in the region and beyond and fulfill its 
responsibilities as a new ally. We are ready to do our part.
    I thank you very much.
    [The prepared statement of Ambassador Kaludjerovic 
follows:]

          Prepared Statement by H.E. Mr. Nebojsa Kaludjerovic
    Mr. Chairman--Senator McCain, Ranking member Reed, distinguished 
members of the Committee,
    I wish to thank you for the opportunity to address you today on 
behalf of my Government and I extend especially our appreciation for 
the Committee's hearing on this important topic. Your interest and 
dedication to the issue of security in Europe, the Western Balkans and 
Montenegro in this case, amid the ongoing challenges we are all facing, 
is a considerable contribution in itself to the valued support of the 
United States to our region towards its future as a full part of the 
Euro Atlantic community.
    We are talking today about one serious, destabilizing scenario 
orchestrated from the outside that fortunately never materialized in 
Montenegro on the eve of the Parliamentary Elections that took place in 
October last year. The plot in question, which virtually amounted to 
coup d' etat, now subject of a trial in front of courts in Montenegro, 
consisted of planned terrorist attacks to overthrow a legitimately 
elected Government and to illegally detain or even assassinate its 
Prime Minister. In the worst case scenario, if the plans had succeeded 
there would have been chaos, serious violence and extremely dangerous 
instability with intention to undermine the constitutional order and 
institutions of Montenegro. That would also have been a derailment of 
the progress of Montenegro and the entire region towards NATO and EU 
integration, which was a presumed motive for carrying out the entire 
plot.
    At this moment, the public trial is ongoing, following months of 
investigation. The Special Chief Prosecutor, in charge of the case, has 
publicly stated that the evidence in this case is (I quote) 
`undisputable' and `iron clad'.
    Indictments that include two Russian nationals (evidence points to 
that, that they were members of GRU-Military Intelligence Services) as 
well as two leading politicians and MPs from the opposition party 
Democratic Front, for conspiracy to form a criminal organization and 
attempt at terrorist attacks, as well as the acts against the 
Constitutional order and public safety. Nine people so far have 
admitted their guilt via the plea--bargain mechanism. Their confessions 
were included in the indictment. The witnesses identified one of the 
Russian nationals, former Deputy Military Attache of Russian Federation 
in Poland who was declared persona non grata in that country for acts 
of espionage, as the organizer of the plot.
    The involvement of Russian nationals is undisputed and Montenegrin 
authorities are waiting for the feedback from the Russian authorities, 
which acknowledged the requests, regarding the questions on the 
involvement of these nationals and their role in the events. (So far, 
Russian authorities have informed us that one of the other suspects, 
who is not a Russian national but is currently at large in Russia, is 
currently being subjected to pre-extradition background checks 
following a request for extradition by the Ministry of Justice of 
Montenegro. This suspect is also banned from traveling outside the 
territory of Russia).
    Had the plot in October succeeded, the instability would have been 
created not only within Montenegro's boundaries but would, for sure, 
have had a spillover effect, in a region that is still not on a fully 
irreversible path to stability. Gratefully, the opposite happened. 
First of all, Montenegrin citizens, once again like at every election 
since restoring the statehood in 2006, have elected pro-NATO and pro-
European Government.
    Montenegro joined NATO on June 5th, and another spillover effect 
happened, but a positive one. The example of another Western Balkans, 
or SEE country, joining the Euro Atlantic institutions is immeasurable. 
It will create a long-term positive effect, offer motivation and 
encouragement to other aspirants from the Region for EU and NATO 
membership, that the perspective of membership in these organizations 
is alive, based on merits, standards and values. No better example 
could have been given to our region.
    Aside from the outcome of this particular matter, Russia's view on 
NATO enlargement and the accession of its 29th member is not a secret, 
nor is their support to the opposition parties and actors in Montenegro 
that are against NATO membership. Leading to the elections in October, 
there was a well-organized and financed public campaign to that effect. 
But these influences Montenegro experienced before, during and after 
elections is not an isolated fact but a pattern based on notions that 
the facts on the ground could be changed. Membership of Montenegro to 
NATO is often perceived by some high level Russian officials as a 
temporary setback, through the false narrative that NATO does not have 
support in Montenegro etc. Therefore, we expect a continuation of 
pressure both aimed at Montenegro and at the Region, especially those 
countries that have not yet become members of NATO and/or EU.
    I wish to point out that Montenegro has been able to succeed in 
achieving its goals in becoming a member of NATO and a frontrunner in 
EU accession by working hard over the past decade with friends and 
partners like the United States. That is an alliance based on values, 
and that is why it succeeds. The reforms, helped bilaterally by the 
United States, part of achieving NATO and EU standards, made our 
society better and firmly on a right path.
    After all, it was thanks to those reforms aimed at strengthening 
the capacities and independence of institutions to uphold the rule of 
law that helped those very institutions to tackle such a challenge we 
are talking about today that would put to test much more established 
democracies than ours.
    Where we did not have capacities ourselves, considering that the 
attempts were multifaceted, involving propaganda and cyber-attacks, we 
were able to ask our partners in NATO or bilaterally like U.S. for 
assistance. As an ally, we will work together within the Alliance on 
the capacities to address new challenges like these.
    We had and do have a right to determine our alliances and our 
future, which we have always been clear about, as our decisions are 
based on our strategic visions and goals not against anybody or 
anything. Montenegro does not pose any sort of threat to Russia and 
wants to be engaged in conversation, in dialogue, and not in 
confrontation.
    Montenegro in NATO can only mean peace and stability, and expansion 
of the area of welfare, of regional cooperation, and good, neighborly 
relations.

    Distinguished members of the Committee,

    What should be done? The United States role in Europe is extremely 
valuable and necessary. The commitment to the vision of Europe whole, 
free and at peace is as relevant today as it was before. The United 
States and its European partners, should continue to reaffirm at every 
opportunity the value of Trans-Atlantic bond, NATO and article 5 
commitment, as President Trump reinforced that valuable message in 
Poland few days ago. As to the Western Balkans, it is crucial to keep 
countering trends that seems to encourage the countries or actors in 
the region to find alternatives to the Euro Atlantic integration and 
full embracement of values and standards that they bring.
    We are thankful and grateful for the U.S. support to our NATO 
membership as well as the increasing focus on the Western Balkans 
issues. The support by the U.S. Congress, and the Senate has been a 
particular champion, is very welcome and needed, as well as from the 
U.S. Administration.
    The upcoming visit to Montenegro by Vice President Pence is a 
strong message that the United States is focused on Europe, and an 
opportunity to show continuous support to the stability and security of 
the Western Balkans region, by supporting a clear perspective of 
membership both in NATO and EU as the best way to achieve those goals.
    On our side, Montenegro will continue to spread the area of 
stability in the Region and beyond and fulfill its responsibilities as 
a new Ally. We are ready to do our part.
    Thank you.

    Chairman McCain. Thank you, Ambassador, for that statement.
    Before you depart to preside over the festivities of 
Montenegro's statehood day, let me just say I have had the 
great fortune to travel to Montenegro a number of times over 
the years. I know the citizens of your country to be a proud 
and independent people, and that is the spirit you celebrate on 
July 13th, the day your country earned independence in 1878, 
the day Montenegrins defiantly rose up against fascist 
occupiers in 1941.
    On this July 13th, Montenegro remains determined as ever to 
choose its own future. Montenegro has chosen the path of Euro-
Atlantic integration. Montenegro has joined the defense of the 
free world as the 29th member of the North Atlantic Treaty 
Organization. Someday, Montenegro hopes to join the European 
Union. The pursuit of this Euro-Atlantic future has not been 
without difficulty. But Montenegro has persevered and, in doing 
so, has sent a powerful message to [Russian President] Vladimir 
Putin and every other tyrant that they cannot and will not 
control the destiny of free people, not in Montenegro, not in 
Southeastern Europe, not anywhere else in the world. For that, 
I hope all Americans will look to our newest ally, Montenegro, 
with the same sense of gratitude, admiration, and solidarity 
that I express to you now.
    Mr. Ambassador, thank you for being with us this morning.
    The committee is grateful to be joined by a distinguished 
panel of expert witnesses: Janusz Bugajski, Senior Fellow at 
the Center for European Policy Analysis; Lisa Sawyer Samp, 
Senior Fellow at the Center for Strategic and International 
Studies; and Damon Wilson, Executive Vice President of the 
Atlantic Council.
    As the Ambassador clearly indicated, what happened in 
Montenegro is perhaps the most disturbing evidence to date of 
how far Vladimir Putin is willing to go to undermine the West, 
bully other nations, and achieve his neo-imperial ambitions.
    Russia's goals in Montenegro were clear: to stop the 
country from joining NATO, to reverse its progress towards 
Euro-Atlantic integration, and to end Montenegro's support for 
sanctions against Russia imposed after its invasion of Ukraine.
    The indictments in this case against the coup plotters in 
Montenegro read like a spy novel. On October 16th, 2016, 
Montenegro's election day, the coup plotters planned to storm 
the parliament, capture and/or kill the Prime Minister, and 
install a new government. With the coup underway, armed men 
would ambush and kill members of Montenegro's Special Anti-
Terrorist Unit to prevent them from interfering with the coup. 
To justify the coup, other plotters disguised as police would 
fire into a crowd of peaceful demonstrators to create the 
illusion of excessive force by the pro-NATO government.
    Two Russian GRU [Main Intelligence Directorate] agents, 
allegedly in league with Montenegrin politicians and Serbian 
nationalists, organized the coup plot. One of the GRU officers 
has been identified as the same man who under a different name 
served as a military attache in Poland until he was declared 
persona non grata and thrown out of the country for espionage. 
Perhaps he was more careful during the Montenegro plot, but not 
by much. In one case, he sent money to one of his co-
conspirators from a Western Union on the same street as GRU 
headquarters in Moscow.
    But that brazenness should not fool anyone. The plot was 
well along its way to succeeding. If it had not been for one 
conspirator who got cold feet and informed the Montenegrin 
authorities, it very well might have.
    I believe it is critical that all Americans understand what 
happened in Montenegro and its implications for our security 
because, as I said, it shows how far Vladimir Putin is willing 
to go to advance his dangerous view of the world, not just in 
Montenegro, not just in Europe, but here in the United States 
as well.
    Russia is embarked on a campaign to weaken the United 
States, to destabilize Europe, to break the NATO alliance, to 
undermine confidence in Western values, and to erode any and 
all resistance to Vladimir Putin's neo-imperial ambitions. He 
is using the full range of capabilities available to him.
    Of course, Putin has rapidly modernized his military and 
grown increasingly willing to use force to achieve his 
objectives, as we have seen in Georgia, Ukraine, and Syria.
    But even more important to the spread of malign Russian 
influence has been the sophisticated employment of asymmetric, 
non-kinetic, capabilities. Indeed, Russia's Chief of General 
Staff has emphasized--``The role of non-military means in 
achieving political and strategic goals has grown and, in many 
cases, they have exceeded the power of force of weapons in 
their effectiveness.''
    This is the key insight that underpins Russia's doctrine 
of, ``new generation warfare.'' It is a strategy of influence, 
not of brute force. Carefully tailored to local circumstances, 
it seeks to undermine our societies and our institutions from 
within through cyberattacks; psychological operations and 
information warfare; propaganda, both overt and covert; 
coercive economic pressure, especially using energy exports; 
targeted use of corruption to buy influence; financing 
political parties, think tanks, and other organizations; and 
more.
    But even as our awareness and understanding of malign 
Russian influence has grown, the simple reality is that our 
response has been inadequate to the scale and scope of this 
challenge. We have to change course now because Vladimir Putin 
is on the offensive, and he is enjoying success at relatively 
low cost.
    We must start by responding to aggression Russia has 
already committed. That is why it is so important that the 
House of Representatives pass the strong Russia sanctions bill 
that already passed the Senate by the vote of 98 to 2. It is 
long past time that Vladimir Putin paid a meaningful price for 
his attack on American democracy.
    We must also develop a coherent and political policy for 
responding to any future aggression using the full range of 
U.S. diplomatic, intelligence, military, and economic tools. 
This is especially true in cyberspace where the United States 
still has no policy to deter, defend against, and respond to 
cyberattacks.
    We must continue to rebuild conventional military 
deterrence in Europe. Building on the progress made through the 
European Deterrence Initiative, we need to repeal the Budget 
Control Act and make significant and sustained investments to 
improve the capability, capacity, readiness, and responsiveness 
of United States forces in Europe. We also have to continue 
helping our allies better defend themselves, including by 
providing Ukraine the defensive lethal assistance it needs and 
deserves.
    We have to keep the door to NATO open for those countries 
that are willing to do what it takes to join the Alliance and 
live up to the responsibilities it entails. Vladimir Putin will 
not let another country go the way of Montenegro without a 
fight. So we need to begin working with NATO aspirants to help 
them withstand the inevitable onslaught of Russian pressure.
    We also have to begin addressing the vulnerabilities in 
Western societies, governments, and institutions that Russian 
strategy is explicitly designed to exploit. Taking on Putin's 
kleptocracy means enhancing the powers of our Treasury 
Department to trace and crack down on corrupt and illicit 
Russian financing that impacts the United States financial 
system.
    Most of all, we have to stop looking at Russia and its 
threats to our security and our democracy through the warped 
lens of politics. We cannot allow Vladimir Putin to divide us 
from one another, weaken our resolve, undermine confidence in 
ourselves, or erode our belief in our own values. We must take 
our own side in this fight, not as Republicans, not as 
Democrats, but as Americans.
    Ambassador and members of this panel, I know that was a 
long statement, and I apologize for that. It is very unusual 
for this committee to have a hearing of this nature. But I 
believe that it was a near thing. If it had not been an 
informant on the inside, this coup attempt could very well have 
succeeded not only with blood shed but with a message 
throughout the region. So I thought it was important to have 
this hearing. I thought it was important to have three 
distinguished witnesses come before the committee so that we 
have a record not only of what happened, but what we need to 
do.
    With that, Ambassador, you are certainly free to leave, and 
I would like to welcome our witnesses after a statement by 
Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, the panel, and Mr. Ambassador, thank you very 
much.
    The chairman is holding a very important hearing on the 
events in Montenegro and the Russian malign influence threat in 
Europe. Let me add my welcome to the witnesses and thank them 
for appearing this morning.
    The events in Montenegro are deeply concerning both for 
their impact within that country and their broader 
implications. While a full accounting of what happened must 
await the results of the criminal trial, the case laid out in 
the Montenegrin indictment already makes clear that these 
events are a pattern of Russian aggression that has occurred 
repeatedly across Europe and the United States. Again and 
again, Russia has used a range of coercive tools at its 
disposal, including political pressure, economic manipulation, 
collaboration with corrupt local networks, propaganda, 
deception and denials, and increasingly military force to try 
to intimidate democratic countries and undermine the further 
integration of NATO, the European Union, and other Western 
institutions.
    Disturbingly Russia's plotting with proxies inside 
Montenegro and the failed attempt to overthrow the pro-Western 
government and assassinate the Prime Minister marks a dangerous 
escalation of its malign influence activities.
    Additionally, Russia's menacing actions in Montenegro have 
implications for other Balkan nations including Serbia, Bosnia, 
and Kosovo. We should do all we can to ensure that Montenegro's 
accession to NATO sends a clear signal to other countries in 
the region, that NATO maintains its open door policy so that 
other countries can aspire to NATO membership without the fear 
of becoming the target of violent Russian aggression.
    The critical question for our witnesses is how the United 
States and its European partners should counter the Russian 
malign influence threat.
    In January, the unanimous conclusion of our 17 intelligence 
agencies was that President Putin directed an influence 
campaign against the 2016 United States presidential election 
with the aims of undermining the American people's faith in the 
election process. The intelligence community also warned that 
the significant escalation of Russian levels of interference in 
United States and European elections represents a new normal. 
As long as Moscow believes that their actions in the United 
States and Europe will be consequence-free, Putin and his 
associates will continue to escalate Russia's hybrid tactics 
against us and our partners to advance their interests.
    We have a duty to confront Russia over its malign 
activities to protect our national security. Unfortunately, 
despite mounting evidence, the White House fails to recognize 
the seriousness of the national security threat posed by 
Russia's malign influence activities. President Trump continues 
to cast doubt on the unanimous collusion of our intelligence 
community and has failed to direct that the Kremlin be held 
accountable for its actions to damage our democratic processes.
    Numerous witnesses have testified to Congress, including 
Attorney General Sessions and Secretary Mattis, that they have 
received no guidance from President Trump on a strategy for 
countering interference with our elections.
    President Trump's recent meeting with President Putin at 
the G20 [Group of 20 Summit] was another missed opportunity to 
deliver a clear message to the Kremlin that its attacks on our 
democracy are unacceptable and will not be tolerated. Instead 
of confronting the President, President Putin, President Trump 
appeased Mr. Putin accepting at face value his denials that 
Russia has interfered with the United States elections. This 
will only encourage further reckless Kremlin adventurism toward 
its neighboring states and efforts to claim a great power role 
in the Middle East and elsewhere.
    Now is certainly not the time to ignore Russian 
interference in elections in Montenegro, France, Germany, the 
United States, or elsewhere and simply move forward.
    Fortunately, the United States Senate has stepped up to 
provide leadership on this issue. Recently an overwhelming 
bipartisan majority in the Senate passed long overdue Russian 
sanctions. This legislation would codify existing sanctions and 
expand authorities for additional ones. It is now incumbent 
upon the House to pass the Russian sanctions bill without delay 
and send it to the President for signature.
    I look forward to hearing from our witnesses about 
additional efforts that are needed to craft a whole-of-
government strategy to defend against and deter this growing 
Russian threat. Also, I hope you will address how the United 
States might coordinate with our allies and partners, many of 
whom have decades of experience in this fight, to effectively 
counter the Russian malign influence threat while remaining 
true to the core values and principles that the United States 
upholds.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Welcome to the witnesses.
    Mr. Bugajski, could you begin--either you or Ms. Samp or 
Mr. Wilson--describe the events that took place again for the 
record, which is the reason for this hearing and then proceed 
with your statement?

    STATEMENT OF JANUSZ BUGAJSKI, SENIOR FELLOW, CENTER FOR 
                    EUROPEAN POLICY ANALYSIS

    Mr. Bugajski. Thank you, Mr. Chairman, and thank you, 
Ranking Member and the members of the committee.
    In terms of Montenegro, you have heard from the Ambassador 
the details as we know them now.
    It should not come really as a surprise to us that Russia 
is determined to prevent new countries from entering NATO. They 
have cultivated their relationship with Montenegro for several 
years in terms of investment, in terms of propaganda, in terms 
of trying to corrupt the country, and they have basically 
failed. So one of the last resorts I think for the Russian 
Government was to try and change the government in Montenegro 
to prevent that country from moving into NATO.
    As I say in my statement, this may be a trial run. We 
should not assume that this is the only case that Russia is 
going to try to unsettle a government in the region. In fact, I 
am sure they are preparing other scenarios of destabilization 
and government replacement.
    So with that said, without going into----
    Chairman McCain. Could I just mention that scenario 
included people in uniform, killing of opposition? I mean, this 
was a very complex plot with months, if not years, in the 
planning. That is what is so compelling about what happened 
here.
    Mr. Bugajski. It reminds me a little bit of what happened 
in Crimea. Remember, Putin denied that they had planned the 
Crimean operation, the annexation of Crimea. In fact, they had 
been rehearsing this for quite a while and it has been admitted 
by Russian sources since.
    Chairman McCain. Please go ahead.
    Mr. Bugajski. Okay. Let me begin by outlining the 
fundamental threats posed by the Kremlin and then place the 
Balkans in a broader strategic context because I think it is 
worth remembering it is not simply the Balkans. It is a wider 
Europe.
    Moscow is engaged in a global shadow war in which the 
primary goal is to dismantle the West and project Russia as a 
pole of power on an equal global footing with the United 
States. Europe is one of the core battlegrounds of this 
struggle for dominance, in which Moscow does not recognize the 
independence or integrity of any targeted state. There are 
three main components of Moscow's anti-Western offensive.
    First, Russia defines itself as a distinct Eurasian pole of 
power, defending itself against Western encroachment, proud of 
its anti-Americanism and authoritarianism, determined to 
delegitimize the Western democratic model, and intent on 
playing a vanguard role among governments that reject political 
influence from Washington and Brussels.
    Second, a key Kremlin goal is to reverse United States 
influences within the wider Europe. This would help Putin exert 
leverage over the foreign and security policies of key states, 
and unlike during the Cold War, there is no accepted division 
of Europe into Western and Russian spheres. Instead, numerous 
states are coerced or enticed either to join the Russian zone, 
to turn neutral, or to oppose United States policy. Moscow 
pressures former Soviet republics to relinquish their western 
aspirations. It promotes conflicts within and between the 
Balkan states. It fosters and exploits disputes over occupied 
territories in Azerbaijan, Georgia, and Moldova, and it 
subverts members of both NATO and the EU.
    Third, while its goals are imperial, Kremlin strategies are 
flexible. A diverse assortment of weapons are deployed to 
disarm the adversary, whether energy, business, trade, 
corruption, blackmail, cyberspace, espionage, politics, 
religion, ideology, disinformation, proxy conflicts, or 
outright warfare.
    Moscow views both NATO and the European Union as threats to 
its expansionist ambitions. NATO's commitment to collective 
defense obstructs Russia's revisionism and its divide and 
conquer policy. European Union standards of legality and 
transparency challenge Russia's opaque business model. Western 
political and human rights standards undermine Russia's 
autocratic political model. Hence, Brexit and other problems 
within the EU are welcomed by Moscow as they divide the union, 
encourage bilateral deals with Russia, and potentially limit 
further EU enlargement.
    Moscow benefits from political, ethnic, and social 
turbulence in Europe. Lucrative business deals and campaign 
donations enable the Kremlin to corrupt and influence targeted 
officials. Democratic regression or the upsurge of nationalist 
populism favors Russia's objectives by weakening state 
institutions and deepening EU divisions. Putin appeals both to 
leftist anti-American and ultra-nationalist Euroskeptics to 
foster turmoil. During election cycles, Moscow aims to 
discredit politicians that do not favor its interests. This can 
involve blackmail, fabricated news reports, and disclosure of 
stolen personal communications.
    Briefly, the Balkan dimension. The Balkans are viewed in 
Moscow as Europe's soft underbelly where latent conflicts are 
inflamed, potential new allies courted, and economic 
opportunities exploited. Russia possesses four main channels of 
influence in the region: energy, corruption, nationalism, and 
propaganda. We can go into this in question time if you like 
because I want to be as brief as possible.
    Moscow aims to disqualify the West Balkan states from NATO 
and EU membership. In Bosnia-Herzegovina, it encourages the 
Serb entity government to keep the country divided. In Kosovo, 
it uses the Serbian minority to uphold the specter of partition 
and blocks Kosovo from entering the United Nations. In 
Macedonia, it manipulates internal turmoil and the country's 
obstructed path towards NATO and the EU to gain political 
influence.
    The coup attempt in Montenegro during national elections in 
October 2016 was organized by Russian military intelligence 
operatives to prevent the country from attaining NATO 
membership. The plot was uncovered in time or it could have led 
to mass bloodshed in Podgorica. While the Russians evaded 
arrest, Montenegrin courts have begun trials of suspected Serb 
nationalists, including members of the pro-Moscow opposition. 
Tellingly, the Serbian Government has been helpful to 
Montenegro in its efforts to investigate the plot. Belgrade I 
think realizes that Serbia could face a similar scenario of 
destabilization if it decides to loosen its links with Moscow.
    We must be better prepared for future violent scenarios in 
the region. The Montenegrin putsch attempt could be a trial run 
and a warning to the region. Moscow's next conspiracy is likely 
to be more sophisticated and broad-based, whether to incite 
Serbian leaders in Bosnia-Herzegovina against the Muslim 
population, engineering ethnic clashes between Macedonians and 
Albanians inside Macedonia, or provoking Serbian-Montenegrin 
conflicts. If it serves his interests, Putin would not be 
averse to igniting a regional war to test NATO resolve, 
distract attention from Russia's interventions elsewhere, and 
to undermine the process of Western integration.
    Very briefly now, in the Balkans, current security 
challenges are not simply military, not even primarily 
military. They are political, ethnic, economic, financial, and 
informational, particularly where local disputes can be ignited 
through outside subversion. The United States and NATO must 
prevent conflict by identifying vulnerabilities, promoting 
interstate cooperation, bolstering energy diversification, 
including gas supplies from Azerbaijan, combating Russian 
subversion, and furnishing steps towards NATO entry.
    Paradoxically, Moscow's attack on democratic elections in 
the United States and in Europe awakened a new sense of realism 
about Putin's Russia, dispelling illusions about our so-called 
common interests. Washington must grasp the leadership role 
just as it did during the Cold War because Europe remains 
divided and is perceived by Moscow as weak and indecisive. If 
the United States forfeits its role, we could witness regional 
crisis not only in the Balkans that shatter European stability 
and damage the NATO alliance.
    My last word is, if you have time, I would like to include 
my recent co-authored book with Margarita Assenova for the 
record entitled ``Eurasian Disunion: Russia's Vulnerable 
Flanks.'' It provides a comprehensive analysis of Moscow's 
strategies and ambitions toward Europe and the United States. 
It was published a few weeks ago--a few months ago. I have 
copies both for the chair and the ranking member.
    [The prepared statement of Mr. Bugajski follows:]

                 Prepared Statement by Janusz Bugajski
    Chairman John McCain, Ranking Member Jack Reed, and members of the 
Senate Armed Services Committee, thank you for the opportunity to speak 
with you today about the growing threat from Vladimir Putin's Russia to 
European security and our trans-Atlantic alliance.
    I will begin by outlining the fundamental threats posed by the 
Kremlin and then place the Balkans in this broader strategic context. 
Moscow is engaged in a global Shadow War in which the primary goal is 
to dismantle the West and project Russia as a pole of power on an equal 
global footing with the United States. Europe is the core battleground 
of this struggle for dominance, in which Moscow does not recognize the 
independence or integrity of any targeted state.
                          moscow's objectives
    Putin's Russia is engaged in a concerted campaign to restore a 
Moscow-centered bloc, undermine the stability of several regions 
stretching from the Arctic to the Caspian Basin, weaken NATO as a 
security provider, and devolve the European Union. There are three main 
components of Moscow's anti-Western offensive.

    1.  Russia defines itself as a distinct ``Eurasian pole of power,'' 
defending itself against Western encroachment, proud of its anti-
Americanism and authoritarianism, determined to delegitimize the 
Western democratic model, and intent on playing a vanguard role among 
governments that reject political influence from Washington and 
Brussels.

    2.  A key Kremlin goal is to reverse United States influences 
within the wider Europe. This would help Putin exert leverage over the 
foreign and security policies of key states. Unlike during the Cold 
War, there is no accepted division of Europe into Western and Russian 
spheres. Instead, numerous states are coerced or enticed either to join 
the Russian zone, turn neutral, or oppose United States policy. Moscow 
pressures former Soviet republics to relinquish their Western 
aspirations, promotes conflicts within and between the Balkan states, 
fosters and exploits disputes over occupied territories in Azerbaijan, 
Georgia, and Moldova, and subverts members of both NATO and the EU.

    3.  While its goals are imperial, Kremlin strategies are flexible. 
A diverse assortment of weapons are deployed to disarm the adversary, 
whether energy, business, trade, corruption, blackmail, cyberspace, 
espionage, politics, religion, ideology, disinformation, proxy 
conflicts, or outright warfare.
                         russia targets europe
    Moscow views both NATO and the EU as threats to its expansionist 
ambitions. NATO's commitment to collective defense obstructs Russia's 
revisionism and its ``divide and conquer'' policy. EU standards of 
legality and transparency challenge Russia's opaque business model. 
Western political and human rights standards undermine Russia's 
autocratic political model. Hence ``Brexit'' and other problems within 
the EU are welcomed by Moscow as they divide the Union, encourage 
bilateral deals with Russia, and limit further enlargement.
    Moscow benefits from political, ethnic, and social turbulence in 
Europe. Lucrative business deals and campaign donations enable the 
Kremlin to corrupt and influence targeted officials. Democratic 
regression or the upsurge of nationalist populism favors Russia's 
objectives by weakening state institutions and deepening EU divisions. 
Putin appeals both to leftist anti-Americans and ultra-nationalist 
Euroskeptics to foster turmoil. During election cycles Moscow aims to 
discredit politicians that do not favor its interests. This can involve 
blackmail, fabricated news reports, and disclosure of stolen personal 
communications.
                       moscow's balkan dimension
    The Balkans are viewed in Moscow as Europe's ``soft underbelly'' 
where latent conflicts are enflamed, potential new allies courted, and 
economic opportunities exploited. Russia possesses four main channels 
of influence in the region: energy, corruption, nationalism, and 
propaganda.

    1.  Moscow fosters energy dependence by tying Balkan countries into 
energy projects, including gas supplies, pipelines, and refineries. 
Energy dependence can undergird diplomatic and political compliance by 
exposing countries to blackmail and coercion.

    2.  Political leaders and businesspeople are corrupted to favor 
Russia's interests and to either remain neutral or support Moscow's 
positions in its foreign policy offensives.

    3.  Local nationalisms are promoted to stir conflicts between rival 
nationalist projects, undermine support for NATO, the United States, 
and EU, and strengthen Moscow's role as mediator. This enables the 
Kremlin to retard the region's progress toward Western institutions.

    4.  The Kremlin engages in propaganda offensives through local 
media, internet, and social networks to enhance Russia's prestige and 
undermine state institutions. Its messages are designed to appeal to 
Euroskeptic, anti-American, and ultra-conservative elements in which 
Russia poses as the defender of traditional values.

    Moscow aims to disqualify the West Balkan states from NATO and EU 
membership. In Bosnia-Herzegovina, it encourages the Serb entity 
government to keep the country divided. In Kosova, it uses the Serbian 
minority to uphold the specter of partition and blocks Kosova from 
entering the UN [United Nations]. In Macedonia, it manipulates internal 
turmoil and the country's obstructed path toward NATO and the EU to 
gain political influence.
    The coup attempt in Montenegro during national elections in October 
2016 was reportedly organized by Russian military intelligence 
operatives to prevent the country from attaining NATO membership. The 
plot was uncovered in time or it could have led to mass bloodshed in 
Podgorica. While the Russians evaded arrest, Montenegrin courts have 
begun trials of suspected Serb nationalist participants, including 
members of the pro-Moscow opposition. Tellingly, the Serbian Government 
has been helpful in Montenegro's efforts to investigate the plot. 
Belgrade realizes that Serbia could face a similar scenario of 
destabilization if it decides to loosen its links with Moscow.
    We must better prepare for future violent scenarios. The 
Montenegrin putsch attempt could be a trial run and a warning to the 
region. Moscow's next conspiracy is likely to be more sophisticated and 
broad-based, whether by inciting Serbian leaders in Bosnia-Herzegovina 
against the Muslim population, engineering ethnic clashes between 
Macedonians and Albanians in Macedonia, or provoking Serbian-
Montenegrin conflicts. If it serves his interests, Putin would not be 
averse to igniting a regional war to test NATO resolve, distract 
attention from Russia's interventions, and undermine Western 
integration.
                           western responses
    United States and EU officials have claimed that there is no zero-
sum competition with Russia over the allegiance of any European 
country. In reality, the contradiction between a country's freedom to 
choose its international alliances, which the West espouses, and 
limitations on state sovereignty, on which Moscow insists, lies at the 
core of the current struggle. While Putin remains at the helm, Western 
policy must be geared toward long-term support for the independence and 
integrity of countries throughout the Wider Europe.
    In the Balkans, current security challenges are not primarily 
military but political, ethnic, economic, financial, and informational, 
particularly where local disputes can be ignited through outside 
subversion. The United States and NATO must prevent conflict by 
identifying vulnerabilities, promoting interstate cooperation, 
bolstering energy diversification (including gas supplies from 
Azerbaijan), combating Russian subversion, and furnishing steps toward 
NATO entry.
    Paradoxically, Moscow's attack on democratic elections in the 
United States and Europe awakened a new sense of realism about Putin's 
Russia, dispelling illusions about common interests. Washington must 
grasp the leadership role just as it did during the Cold War, because 
Europe remains divided and is perceived by Moscow as weak and 
indecisive. If the United States forfeits its role we could witness 
regional crises that shatter European stability and damage the NATO 
alliance.
                              conclusions
    The United States and NATO need to be armed for the Shadow War with 
Moscow. In addition to deterrence, the most effective form of defense 
is offense with a focus on Russia's numerous vulnerabilities: economic, 
political informational, and cyber. The Russian Federation faces 
prolonged internal decay because of its structural, economic, and 
demographic failures. To deceive its citizens the Kremlin engages in 
foreign adventures: when it cannot provide bread it offers circuses. 
The Trump administration can craft an enduring legacy by reversing the 
Kremlin offensive in Europe and rebuilding a more resilient trans-
Atlantic alliance. This would raise the stature of the United States as 
the most effective international leader and make America stronger and 
greater.
    Lastly, I would like to include my recent co-authored book with 
Margarita Assenova for the record. Entitled Eurasian Disunion: Russia's 
Vulnerable Flanks, it provides a comprehensive analysis of Moscow's 
strategies and ambitions toward Europe and the United States.

    Chairman McCain. Without objection, it will be included in 
the record.
    [The information referred to follows:]

    [The received publication will be retained in the committees 
files.]

    Chairman McCain. Ms. Samp?

  STATEMENT OF LISA SAWYER SAMP, SENIOR FELLOW, INTERNATIONAL 
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Ms. Samp. Thank you. Mr. Chairman, Ranking Member Reed, and 
distinguished members of the committee, good morning. I would 
like to begin by thanking you for holding this hearing and, 
more broadly, for the steps the Senate has taken to assert its 
oversight role and voice related to issues of Russia and 
Europe, including your overwhelming bipartisan support for 
Montenegro's accession to the NATO alliance and more recently 
for the Russia sanctions resolution. I do hope as well, sir, 
that the House will pass it quickly and in matching form.
    With that said, I would like to make two brief points 
regarding the topic of today's hearing.
    First, Russia is becoming increasingly aggressive and 
ambitious. The coup attempt in Montenegro and Russia's role in 
it is illustrative, but it is by no means unprecedented. 
Montenegro was not the first----
    Chairman McCain. When you say ``unprecedented,'' I think it 
was almost unprecedented in the extent and the complexity and 
the willingness to kill people.
    Ms. Samp. I mean more in these terms of it is not the first 
time Russia has attempted to undermine the sovereign right of a 
nation to freely choose its political associations----
    Chairman McCain. I got you.
    Ms. Samp.--which we saw in both Georgia and Ukraine. But I 
agree it was an audacious attack.
    Russia's tactics, as you know, are broad in nature. They 
include things like disinformation, propaganda, cyberattacks. 
The list goes on. A Polish colleague once described these tools 
to me as ``not the enemy at the gates, but the enemy in your 
pocket.'' This was a reference to all the ways that Russia can 
now reach you through your cell phone.
    Putin likely does not want a war with the West, but he is 
finding he can get a lot done without one. For this reason, he 
has no intention of stopping now. He is experimenting along the 
way, growing increasingly comfortable taking risks and getting 
better.
    Three years ago, if you had asked anyone in Washington 
about the Russia challenge, you likely would have gotten an 
answer almost exclusively focused on the eastern flank, Ukraine 
in particular where Putin annexed Crimea and has continued to 
stoke violence in the country's east. Since then, thousands 
have died and over a million have been displaced.
    Next Monday, July 17, will be the third anniversary of a 
day a Russian-provided missile brought down a civilian airliner 
in the skies over eastern Ukraine killing all 298 people 
aboard, including one American.
    Two years ago, if you had asked the same question about the 
Russia challenge of either me or one of my colleagues, our 
answers would have expanded to include Syria where Russia has 
killed thousands in indiscriminate bombing runs and extended 
the civil war and distracted from the fight against the Islamic 
State.
    As of last fall, our answers would now have to reference 
the brazen assault that took aim at the very heart of United 
States democracy and another that took aim at Montenegro's.
    One has to wonder what is Putin up to right now. What is he 
planning that we will be discussing at a hearing like this a 
year from now?
    The steady drumbeat of increasingly aggressive and 
opportunistic Russian behavior means we can no longer blame 
surprise or ignorance for inadequate and slow responses. The 
coup attempt in Montenegro serves to further reinforce what we 
should already know, that more must urgently be done to better 
protect ourselves and our allies from Russia's systemic 
campaign to undermine the very foundations of Western society.
    My second and final point gets at what to do about it. We 
are not outmatched, but we are being outplayed. I will pause 
here and ask you to think about why Russia is trying to sow 
instability and undermine the global order. There has been a 
lot written on it. I, like my colleague, also just added a bit 
more, and we have some copies for the chair and the ranking.
    But it boils down to an easy answer. It wants to and it can 
without major consequences. I discuss in more detail in my 
written testimony the ``wants to and can'' part of that 
equation. But I want to pause for a moment and focus on the 
``without major consequences'' part.
    The steps taken by the West since 2014 remain insufficient. 
We are not doing enough to change Russia's calculus. Putin is 
still seeing more reward than risk. It is, therefore, time to 
increase the credibility of our threats and promises and 
decrease our sensitivity to Russia's knee-jerk protest to any 
and all NATO activity. It is time to draw a firmer line and to 
speak to Putin in the language he bests understands: power and 
resolve.
    How do we do that? Well, there are no silver bullet 
solutions precisely because Russian aggression has manifested 
in so many different ways. We need a combination of measures 
that aim to shore up our own vulnerabilities to Russian 
coercion and apply greater pressure to contest it. We need more 
defense and, importantly, offense across the spectrum of our 
toolkit. This means shaping a new relationship paradigm that 
puts more onus on Moscow to comply with international norms 
rather than simply imposing consequences for breaching them.
    What do I mean by that? Well, instead of saying we will 
lift sanctions when Russia decides to comply with the Minsk 
Agreements, say that we will raise them until they do. Instead 
of kowtowing to Russia's supposed spheres of influence, provide 
Ukraine the lethal assistance it so desperately needs and 
increase United States support to vulnerable nations in the 
gray zone. Instead of simply accepting Russia's unfounded 
claims of Western provocation, recognize the vast disparity in 
the size of our force posture and exercises and begin to 
enhance deterrence.
    Here it is important to step back and recall that the 
United States combat presence in Europe is a full brigade 
strength below what it was in 2012 prior to renewed tensions 
with Russia and that NATO's largest exercise conducted since 
the end of the Cold War peaked at about 30,000 troops. 
Meanwhile, Russia's Zapad exercise planned for later this fall 
may reach up to 100,000.
    Instead of discussing cooperation on an impenetrable 
cybersecurity unit, we should be doing more to both defend our 
systems and employ offensive cyber techniques to expose and 
undermine Russia in the cyber domain.
    Instead of delegitimizing or demonizing the free press, we 
should be doing more to promote accurate and truthful 
narratives using all the tools at our disposal, including those 
available covertly.
    Instead of casting doubt on the efficacy of our alliances, 
we should be educating our publics on the importance of the 
international order and the value of the transatlantic bond. We 
should be strengthening and investing in NATO, not tearing it 
down. Our alliances are our greatest foreign policy advantage, 
and I think it behooves us all to remember that.
    Finally, we should be practicing what we preach. The United 
States cannot be a credible critic of Russian aggression if it 
does not provide a strong alternative example. Continued United 
States leadership of the international order is at stake.
    Now, none of this means we cannot still cooperate with 
Russia where it is in our interest to do so like on arms 
control or nuclear nonproliferation. But we must approach 
engagement cautiously, selectively, and with firm limits. 
Changing Russia's behavior will not be quick or easy, but the 
stakes are simply too high not to try. If Russia can be 
creative and adaptive, then surely we can too.
    In conclusion, Russia may just be looking out for what it 
considers to be in its national interest, but then we need to 
do the same. That entails pushing back harder to protect 
ourselves, our allies, and the international order.
    Thank you.
    [The prepared statement of Ms. Samp follows:]

                 Prepared Statement by Lisa Sawyer Samp
    Chairman McCain, Ranking Member Reed, and distinguished Members of 
the Committee, it is an honor to testify before you today alongside His 
Excellency Nebojsa Kaludjerovic, Mr. Janusz Bugajski, and Mr. Damon 
Wilson regarding the attempted coup in Montenegro and malign Russian 
influence in Europe.
    This testimony is informed by a study conducted in my capacity as a 
Senior Fellow at the Center for Strategic and International Studies 
entitled ``Recalibrating United States Strategy toward Russia: A New 
Time for Choosing,'' released in March 2017. It also draws from my 
previous experience working European security issues on the National 
Security Council staff and at the Department of Defense. Given the deep 
expertise of my fellow witnesses on Montenegro, I will focus my remarks 
on the broader Russia challenge, the response of the United States and 
Europe, and areas in need of Congressional attention.
                    russia's actions in perspective
    The 2016 coup attempt in Montenegro was not the first, nor likely 
will it be the last, of Russia's attempts to undermine the sovereign 
right of a nation to freely choose its political associations--a right 
Russia itself affirmed in the 1975 Helsinki Final Act and reaffirmed in 
the 1990 Charter of Paris. It represents a single data point on an 
irrefutable trend line of increasingly aggressive and opportunistic 
Russian behavior. To describe the incident as new or eye-opening would 
be to dismiss all that has come before it. This is not meant to 
minimize what occurred, but to put it in proper perspective. Given the 
pervasiveness and severity of Moscow's known offenses, we can no longer 
blame surprise or ignorance for inadequate and slow responses. The coup 
attempt serves to further reinforce what we should already know: more 
must urgently be done to better protect ourselves and our allies from 
Russia's systemic campaign to undermine the international system that 
would hold it accountable to the rule of law and deny its desired 
spheres of influence.
    President Putin has amassed a robust global toolkit comprised of a 
variety of conventional and unconventional tactics, to include 
disinformation and propaganda, cyber attacks, economic coercion, 
political subversion and election meddling, deniable forces in the form 
of ``little green men,'' nuclear saber-rattling, aggressive air and sea 
maneuvers, and other malign activities. These tactics are designed to 
circumvent United States and NATO redlines, confuse traditional 
response options, and use the virtues of the West against it. Russia 
has experimented with the application of these tactics in varying 
combinations and at mutable levels of intensity--leveraging just enough 
to create chaos and sow instability in an effort to undermine the 
international system.
    What began primarily as a challenge along NATO's eastern flank has 
steadily expanded outward, subverting Western interests and influence 
in all directions. To the North, Russia has increased its military 
presence in the Arctic and laid formal claim to 460,000 square miles of 
Arctic ocean seabed. \1\ To the East and South, Putin has employed 
military force in Georgia, Ukraine, and Syria. In Ukraine, he annexed 
Crimea and continues to sow violence in the country's east. Thousands 
of Ukrainians have died and over a million have been displaced. We must 
also not forget the 298 people, including one American, who were killed 
when a Russian-provided antiaircraft missile brought down a civilian 
airliner in the skies over Eastern Ukraine. In Syria, Russia's support 
for the Assad regime has extended the civil war, distracted from the 
fight against the Islamic State, and exacerbated human suffering. 
Russia is also a strategic ally of Iran and a key trading partner. Its 
interest in selling $10 billion worth of arms to Iran--including T-90 
tanks, artillery, aircraft, and helicopters--would increase Tehran's 
military capability at a time when its malign activities are already 
having significantly destabilizing effects across the Middle East. \2\ 
In Asia, there is growing evidence that Russia is supplying weapons to 
the Taliban in Afghanistan. \3\ It is also expanding its military and 
energy cooperation with China and India; moves that seek to advance its 
interests while challenging the influence of the United States in the 
region.
---------------------------------------------------------------------------
    \1\ Carol J. Williams, ``Russia claims vast Arctic territory, seeks 
U.N. recognition,'' Los Angeles Times, August 4, 2015.
    \2\ ``Russia and Iran in talks over $10 billion arms deal: RIA,'' 
Reuters, November 14, 2016, http://www.reuters.com/article/us-russia-
iran-arms-idUSKBN1390UM
    \3\ Thomas Gibbons-Neff, ``Russia is sending weapons to Taliban, 
top United States general confirms,'' Washington Post, April 24, 2017, 
https://www.washingtonpost.com/news/checkpoint/wp/2017/04/24/russia-is-
sending-weapons-to-taliban-top-u-s-general-confirms/?utm--
term=.639d8c8b979f.
---------------------------------------------------------------------------
    Compounding all of this, Russia's attempts to confront the United 
States in the cyber and space domains could have dangerous implications 
for how Americans live and fight, according to former U.S. director of 
national intelligence James Clapper. \4\ Its violation of the INF 
[Intermediate Range Nuclear Forces] treaty and nuclear saber-rattling, 
likewise, raise worrying questions about Russia's commitment to 
strategic stability and to the norms that have preserved a certain 
degree of caution in public discussions related to nuclear weapons.
---------------------------------------------------------------------------
    \4\ Tess Owen, ``US Spy Chief Warns of Space Wars, North Korean 
Nukes, and Cyber Threats,'' Vice News, February 9, 2016, https://
news.vice.com/article/us-spy-chief-warns-of-space-wars-north-korean-
nukes-and-cyber-armageddon.
---------------------------------------------------------------------------
    Russia's malign influence has also crossed an ocean to strike at 
the heart of United States democracy with its interference in the 2016 
presidential election. This brazen action shows that Putin is only 
becoming more emboldened with time and growing increasingly comfortable 
taking risks. Efforts to minimize or downplay Russia's attack against 
the United States only increases the likelihood that similar and more 
ambitious election interference will occur in the future, including 
against our closest allies in Europe. Efforts to ``move on'' or ignore 
the incident do not serve long term U.S. interests.
                   understanding russia's motivations
    Why is Russia seeking to undermining the existing international 
order by sowing instability abroad? The answer is simple: It wants to 
and it can, while reaping more rewards than consequences.
    First, it wants to for a variety of reasons that reflect a 
combination of: (1) Putin's domestic political calculations; (2) a 
desire to right historical wrongs borne of the ``humiliation'' that 
ensued following the end of the Cold War; (3) longstanding distrust of 
Western intentions, especially as it relates to NATO enlargement, that 
engender a zero-sum world view in which American's gains are seen as 
Russia's losses and vice versa; and (4) the need to protect a 
geopolitical sphere of influence that is seen as central to Russia's 
own security.
    Second, Moscow is now more able to act on these motives than in the 
past due to a mix of growing strengths inside Russia and growing 
weaknesses inside the West. Russia, for its part, has partially 
recovered from the collapse of the Soviet Union. High energy prices in 
the 2000s helped stabilize the economy, and Putin's consolidation of 
political power has minimized domestic opposition that might otherwise 
constrain a confrontational foreign policy. Moscow's reinvestments in 
its armed forces since 2008 have helped Russia reemerge as a formidable 
military power. Though not a peer competitor to the United States 
military, the Russian military does enjoy local superiority across the 
span of its western borders in Europe. This, combined with the creative 
employment of niche capabilities and a low bar for the use of force, 
allows Russia to play to its advantages and yield considerable bang for 
its buck--especially since destabilization is a comparatively limited 
and achievable goal.
    For the West's part, we have failed to adequately invest in the 
health of our democracies, institutions, and defenses. The end of the 
Cold War lulled Western societies into complacency and promoted a 
misguided faith in the sustaining power of good intentions absent 
proper upkeep. Russia has exposed and exploited the cracks in our 
foundation, likely with more success than even it thought possible.
    Russian disinformation campaigns, for example, benefit from 
domestic political efforts to delegitimize or demonize the free press 
and intelligence agencies. Russian attempts to break Western unity is 
abetted by populist narratives that cast doubt on the efficacy of our 
alliances and institutions. Russian political and economic coercion is 
helped along by the ease with which assets can be held in obscurity in 
developed democracies and by illiberal trends that spurn transparency 
and oversight while rewarding corruption. Russian military threats and 
posturing are made more threatening by Europe's lack of defense 
investment and military readiness. Russian manipulation and 
whataboutism is legitimized by Presidential statements that draw moral 
equivalencies between the West and Russia. Instead of educating our 
publics--who have largely forgotten why NATO and the European Union 
were created--on the importance of the international order and the 
value of our alliances, some in our own societies are eager to turn 
public unawareness into anger in exchange for short term political 
gains. Sadly, Russia can only look at this and laugh.
    The final piece of the equation is that Russia's current incentive 
structure appears to encourage more action rather than less. In other 
words, it is reaping more rewards than consequences. Consider, for 
example, that Ukraine and Georgia's progress toward NATO membership 
appears indefinitely stalled; Russia now controls Crimea; transatlantic 
cohesion is straining under the growing political divisions; and Assad 
has been pulled back from the brink. Meanwhile, Putin is more popular 
at home than ever. Sanctions have proven a convenient scapegoat for 
greater structural problems within Russia's economy. Russia's status as 
an international power player has been renewed. Russia's pattern of 
provocative behavior will not change until the West imposes greater 
consequences--until Moscow sees more risk than reward.
                  united states and european response
    Following Russia's 2014 aggression in Ukraine, the United States 
and its allies imposed diplomatic and economic sanctions against Russia 
and quickly established an enhanced and persistent air, land, and sea 
presence in Eastern Europe to reassure nervous allies. All of these 
measures have evolved from their initial formulation.
    The United States sanctions levied against Russia in response to 
its seizure of Crimea and continuing support of violence in Eastern 
Ukraine were matched by the European Union, along with every non-EU 
member of NATO (with the exception of Turkey) and major non-NATO 
partners Australia, Japan, and South Korea. It is the participation of 
partners and allies that has given the sanctions their bite. The trade 
in goods between the EU and Russia in 2015, for example, totaled $222 
billion. This is compared to $22 billion between the United States and 
Russia. In late December 2016, President Obama authorized additional 
United States sanctions in response to Russia's cyber operations aimed 
at the presidential election. President Trump could rescind these 
sanctions, imposed by Executive Order, at any time. Should the United 
States unilaterally pull its support, the international sanctions 
regime would likely collapse in short order.
    In the security realm, NATO agreed to assurance and deterrence 
measures at the 2014 Wales Summit and the 2016 Warsaw Summit that aimed 
to enhance alliance readiness against all threats. These efforts 
include additional force presence in NATO's east, enhanced training and 
exercises, prepositioned equipment, and military infrastructure 
improvements. The most recent commitments have transitioned the 
alliance from reassurance-focused measures to those that seek to 
establish a longer-term credible deterrence in NATO's east. This 
includes, among other things, expanding the number of troops in each 
Baltic State from a company-sized force (approximately 150 troops) to a 
more capable battalion-sized force (approximately 1,000 multinational 
troops); updating war plans; reconfiguring prepositioned equipment to 
support war plan requirements (as opposed to training and exercises); 
standing up a rapid reaction force that would be able to quickly surge 
reinforcements in a crisis; establishing eight reception and staging 
centers along NATO's eastern flank to receive those reinforcements; 
updating alliance threat assessments; improving logistics to reduce 
barriers to the freedom of movement for troops and equipment across 
Europe; and reinvesting in the defense capabilities needed for 
territorial defense (vice expeditionary operations).
    Much of the United States contribution to broader NATO assurance 
and deterrence efforts--known collectively as the Readiness Action 
Plan--has been funded by the European Reassurance Initiative (ERI) and 
conducted under the auspices of the Defense Department's Atlantic 
Resolve mission. ERI was initiated in fiscal year (FY) 2015 as a $1 
billion appropriation within the Defense Department's Overseas 
Contingency Operations (OCO) budget. \5\ Former President Obama's 
fiscal year 2017 budget request proposed quadrupling ERI funding to 
$3.4 billion, up from $789 million in fiscal year 2016, in 
acknowledgement of the threat Russia poses to United States interests 
in Europe.
---------------------------------------------------------------------------
    \5\ White House, ``Fact Sheet: European Reassurance Initiative and 
Other United States Efforts in Support of NATO Allies and Partners,'' 
June 3, 2014, https://obamawhitehouse.archives.gov/the-press-office/
2014/06/03/fact-sheet-european-reassurance-initiative-and-other-us-
efforts-support-.
---------------------------------------------------------------------------
    Despite continuing to reside in the one-year OCO budget, ERI is now 
considered a multi-year effort aimed at enhancing the United States 
presence, capability, and readiness in Europe after decades of decline. 
The most recent defense authorization bill would further expand ERI to 
a total of $4.8 billion, allowing for additional prepositioned 
equipment and infrastructure investments. ERI does not aspire to return 
the United States to a Cold War-era posture. It does, however, aim to 
allow the United States to better defend its interests and allies and 
to begin to contend with Russia's military advantages in Eastern Europe 
by taking steps deemed minimally necessary for credible deterrence. 
These steps are prudent given the security environment and are neither 
hostile nor provocative toward Russia, regardless of Moscow's reflexive 
cries to the contrary.
    The sum total of the measures taken by the United States and its 
European allies since 2014 are a good start, but they are not enough to 
adequately manage the Russia challenge. Notwithstanding rotational 
increases made possible through ERI, the United States Army combat 
presence in Europe remains a full brigade strength below what it was in 
2012--prior to renewed tensions with Russia. Defense spending among 
NATO allies (not including the United States) will collectively 
increase by 4.3 percent in 2017 with a total increase of $46 billion 
since 2014, though arguably this can and should be happening more 
quickly in certain cases. \6\ The European Union (EU) has held firm on 
sanctions (recently renewed through January 2018), though the $11 
billion, 745-mile Nord Stream 2 pipeline project remains a 
possibility--in violation of both the spirit of the sanctions and 
stated EU desires to diversify away from Russian gas supplies. Energy 
cooperation is likewise expanding between Russia and the increasingly 
autocratic governments in Turkey and Hungary.
---------------------------------------------------------------------------
    \6\ Ellen Mitchell, ``NATO pledges to up defense spending after 
Trump pressure,'' The Hill, June 28, 2017. http://thehill.com/policy/
defense/339832-nato-pledges-to-up-defense-spending-after-trump-
pressure.
---------------------------------------------------------------------------
    Given that Russia's malign influence continues unabated and with 
growing ambition, the yardstick for measuring the success of the 
Western response can no longer be the ability to reach and maintain 
consensus around a NATO table. Rather, it must be tied to outcomes; 
i.e., changing Russia's behavior. There remains much that can be done 
to press the West's advantages vis-a-vis Russia without sparking a 
conflict or even coming close. It is time to draw a firmer line--to 
decrease our sensitivity to Russia's reflexive protests and increase 
the credibility of our threats and promises. As Lenin reminds us about 
the Russian attitude toward power, ``You probe with bayonets. If you 
find mush, you push. If you find steel you withdraw.'' A steel spine is 
required in defense of the international system that has served the 
United States and its allies so well over the past 70 years.
                            the way forward
    I, along with my co-authors, offer a comprehensive strategy for 
managing the Russia challenge in a CSIS report entitled ``Recalibrating 
United States Strategy toward Russia: A New Time for Choosing.'' This 
strategy seeks to strengthen Western institutions, contest Russia's 
aggression, and pursue cooperation where advantageous and feasible 
(such as in the areas of arms control and nuclear nonproliferation) 
without degenerating into endless accommodation.
    Without recreating that work here, I wish to highlight a few of the 
high priority recommendations that Congress can advance:

    <bullet>  Pass the Russia Sanctions Review Act of 2017. The 
Senate's overwhelming bipartisan support (98-2) for the ``Russia 
Sanctions Review Act of 2017'' in Senate Resolution 722 on June 15, 
2017, is a necessary and appropriate step that will ensure Russia 
continues to be held accountable for its aggressive and destabilizing 
actions; further deter it from undertaking similar acts in the future; 
and positively assert Congress's vital oversight role in matters 
pertaining to United States national security.

       Beyond codifying the current sanctions regime, the Senate 
resolution seeks to dissuade those that would do business with the 
Russian intelligence and defense sectors, a vital element of the 
legislation that would both further punish Russia for its interference 
in the 2016 United States elections and inhibit the growth and 
development of its defense capabilities. The legislation also expands 
sanctions related to Russia's energy sector and further restricts 
access to debt financing; levies new sanctions against Russian actors 
engaged in corruption and human rights abuses, and those supplying 
weapons to the Assad regime or conducting cyberattacks on behalf of the 
Russian Government; and, importantly, authorizes assistance to allies 
and partners in Central and Eastern Europe to counter malign Russian 
influence and disinformation. These are needed steps that will help 
provide the United States with leverage in managing the Russia 
challenge.

       The United States Congress--Republicans and Democrats alike--
must unite to send a clear message to Russia and others that our core 
democratic practices are not a playground for bullies and dictators--
that we will punish and oppose any violation of our sovereignty and 
that of our allies and partners. The United States House of 
Representatives should take immediate action to pass a matching 
resolution.

    <bullet>  Increase and optimize the United States conventional 
military presence in Europe. United States forces in Europe today are 
not adequate to deter Russian aggression at a remaining level of risk 
that should be acceptable to United States policymakers or members of 
Congress. This does not mean that the United States should return to 
the massive Cold War-era military presence it once kept in Europe. 
There are reasonable steps, however, that could be taken to enhance the 
credibility of our deterrence in Europe. To start, The United States 
should forward station an armored brigade combat team and additional 
Army enabling units in Europe; restore a full-strength combat aviation 
brigade; retain at least six Air Force fighter squadrons in Europe with 
the ability to rapidly flow in more aircraft as necessary; and ensure a 
robust naval presence in and around European waters. There should be at 
least as many combat forces in Europe today as there were in 2012.

       The European Reassurance Initiative--or rather its successor, 
the European Deterrence Initiative--will need to continue to be funded 
at similar or slightly higher levels and should be codified in the 
Defense Department's base budget, rather than be considered as part of 
the Overseas Contingency Operations account. This will provide greater 
stability and predictability to the Defense Department's Europe 
planning. The Russia threat is not going away anytime soon and the 
budget should reflect this reality.

    <bullet>  Support Ukraine and other partners in the so-called gray 
zone. The United States has committed more than $600 million in 
security assistance to Ukraine--the cornerstone of which is train, 
equip, and advise efforts that help build the capacity of Ukraine's 
forces, while also advancing institutional reform. Ukraine will require 
additional support--conditioned on its continued progress in 
implementing necessary anticorruption and transparency reforms--across 
the spectrum of its security, economic, and governance needs.

       Congress should continue the authorization of lethal aid to 
Ukraine as a signal of support for necessary policy changes that would 
increase the costs to Russia for any further aggression. Also needed is 
greater engagement with and support to the other vulnerable non-NATO 
partners in the Caucasus, Balkans, Central Asia, and Eastern Europe as 
a means to check Russia attempts to undermine their sovereignty and 
foment regional instability. Funding for State Department resilience 
efforts in Europe will be key.
             A Reinforcement Model for Deterrence in Europe
    NATO's conventional deterrence strategy in Europe is based upon a 
reinforcement model that depends on: (1) small, yet capable, tripwire 
forces; (2) rapid-response forces that can be mobilized on short 
notice; and (3) the ability to get follow-on forces to the fight 
quickly. While much of the alliance's focus has been on ground forces, 
the United States and its allies would also be expected to surge air 
and naval forces to the region in a crisis, both of which add 
significant capabilities to counter Russia.

    <bullet>  The tripwire forces in the Baltic States and Poland are 
known as NATO's Enhanced Forward Presence (eFP), which began deploying 
in February 2017 and recently reached full operational capability. The 
eFP is comprised of four multinational battalions, or battlegroups, led 
by the United States (in Poland), the UK (in Estonia), Canada (in 
Latvia), and Germany (in Lithuania), with contributions from several 
other nations augmenting or in some cases rounding out the deployments 
by these framework nations. NATO's eFP framework essentially replaces 
the continuous United States deployments of company-sized elements to 
each of the Baltic States and Poland. The United States troop presence 
that was once thinly spread across the eastern flank is smartly being 
consolidated in Poland as the United States-led eFP battalion. Outside 
of the eFP framework, the United State has separately deployed to 
Poland elements of a rotational armored brigade, which will have other 
elements available for exercises and training elsewhere. Additionally, 
NATO has established eight NATO Force Integration Unit (NFIUs) in 
countries along NATO's eastern flank--the three Baltic States, Poland, 
Romania, Bulgaria, Slovakia, and Hungary--that will be able to act as 
rapidly expandable reception and staging centers for arriving 
reinforcements.

    <bullet>  The rapid response forces are comprised of NATO's Very 
High Readiness Joint Task Force (VJTF), an approximately brigade-sized 
multinational force led on a rotational basis by participating allies; 
headquarter elements comprising NATO's Rapid Deployable Corps; and 
other immediately available support elements found within the NATO 
Force Structure. The United States Army forces permanently stationed in 
Europe--the 2nd Calvary Regiment (Stryker brigade) based in Vilseck, 
Germany, and the 173rd Airborne brigade based in Vicenza, Italy--would 
also be able to quickly respond in a crisis, along with the United 
States' rotational armored brigade, made possible by ERI. Given NATO's 
requirement for political consensus before deploying the VJTF, the U.S. 
Forces would likely be the most readily available first responders in 
certain contingencies.

    <bullet>  The follow-on forces would be comprised of forces based 
in the United States that could relatively quickly fall in on the war-
fighting equipment that has been prepositioned in Western Europe 
(Germany, the Netherlands, and Belgium). These Army Prepositioned 
Stocks were added under the fiscal year 2017 ERI. Follow-on forces 
could also potentially include the expanded NATO Response Force, 
including its Initial Follow-on Forces Group and its air, maritime, and 
SOF components, along with any allied national forces joining the 
fight.

    Chairman McCain. Thank you.
    Mr. Wilson?

   STATEMENT OF DAMON WILSON, EXECUTIVE VICE PRESIDENT, THE 
                        ATLANTIC COUNCIL

    Mr. Wilson. Thank you very much, Chairman McCain, Ranking 
Member Reed, members of the committee. I want to begin and bed 
this in a little bit of the story of understanding what 
happened and why it matters.
    In June 2014, NATO foreign ministers met in Brussels to 
consider Montenegro's accession to NATO. Just 3 months prior, 
the Russian Federation had annexed Crimea. So many argued at 
the time that the NATO's decision to invite Montenegro into the 
Alliance was not only merited on its own terms, but would also 
contribute to a decisive response to Russia's invasion of 
Ukraine. Others, however, urged delay, emphasizing de-
escalation of the crisis unfolding in Ukraine.
    In the end, it was ambivalence among key allies and, 
frankly, opposition by the United States that led the Alliance 
to punt the decision, agreeing to reconsider the issue by the 
end of 2015, which would be 18 months later.
    So as NATO ministers failed to reach consensus on 
Montenegro that tumultuous summer, Moscow saw an opening. NATO 
had blinked. With the successful seizure of Crimea and the 
emergence of what the Kremlin believed would become 
Novorossiya, Russia was on offense. The West was stunned, and 
true to form, Moscow's success emboldened the Kremlin to pursue 
further success. The thinking in Moscow was that the seizure of 
Ukrainian territory would surely block Ukraine's move towards 
NATO and the EU. But might the Kremlin also be able to stop the 
integration process in Southeast Europe?
    So it is during this period that the plot for Montenegro 
was hatched when Aleksandar Sindjelic, the leader of the 
paramilitary Serbian Wolves, began Serbian fighters to fight in 
Ukraine, himself included. It is there that Russian 
nationalists introduced him to two Russian military 
intelligence agents, GRU agents, Eduard Shirokov and Vladimir 
Popov. Open source reporting provides a compelling case that 
the GRU and its associates were directly involved in 
orchestrating the attempted coup. Sindjelic received money from 
these Russian contacts to purchase weapons and supplies used in 
the Montenegro operation and to recruit participants. The 
details are sensational, and since, Senator McCain, you asked, 
I will add a few more of the details to put that in the record.
    We should remember that this was plan B. Plan A was for the 
Russians to tip the balance of the elections. I have had the 
opportunity to travel to Montenegro regularly, almost every 
year for the past several years, and in the run-up to this 
election, it was pretty remarkable to see street signs, 
billboards all across the country anti-NATO campaign. So the 
plan was to defeat the pro-NATO forces in this election through 
using the Orthodox Church, the Serbian Orthodox Church, a 
telecommunications company, and a media empire. This small 
country of 600,000 was flooded with resources to tip the 
balance. In fact, the main Serbian opposition party was not 
radical enough, and the Russians sidelined them, picked a 
fringe party called the Democratic Front and, through its 
resources, it went from being irrelevant on the Montenegro 
political scene to now being the leading opposition. Two of its 
leaders now are being tried for the coup attempt. That was plan 
A.
    Plan B was that on October 16th, 2016, if the pro-NATO 
forces were to succeed at the election, to enter parliament 
dressed as Montenegro security services, open fire on 
opposition supporters that the organizers had cynically 
gathered and called to convene in front of the parliament 
themselves, kidnap or assassinate the Prime Minister, declare 
the elections invalid, and install the Democratic Front taking 
power, this followed very rapidly by a series of very strange 
developments.
    On October 24th, after Serbs doubting it, announced that 
they had found complicit information about co-conspirators in 
Belgrade. 2 days later, the head of the--Patrushev, the head of 
the Russian National Security Council, arrives in Belgrade, 
supposedly privately to apologize for a botched operation, but 
also to provide cover for the deportation of two Russians that 
departed Belgrade, some just before and some again on November 
11th. December 12th, Lavrov is there seen pictured with one of 
the co-conspirators in this coup.
    It is a spy novel. It is hard to believe.
    If the coup would have succeeded, it would have dealt an 
immeasurable blow to the Alliance. It would have brought a halt 
to the process of NATO enlargement as well.
    This incident is part of Russia's strategy to make the 
world safe for autocracy and kleptocracy. Russia seeks to 
reverse the Cold War order and undermine both NATO and the EU 
from within through malign influence operations.
    In response, the United States and the European Union have 
enacted tough sanctions. I very much support the congressional 
effort to toughen those sanctions with the bill that is 
pending. But sanctions should be part of a strategy rather than 
the strategy. This administration has yet to articulate clearly 
the nature of the Russian challenge, much less the strategy to 
counter it. Nonetheless, I believe the key elements of a 
response are in place or within reach.
    To tackle malign Russian influence, I would advocate a 
five-part strategy: promoting prosperity, bolstering our 
defense capabilities, pursuing a concerted engagement strategy 
exposing Russian actions, and anchoring our actions and our 
ideals. That is offering our vision of what it is we are 
seeking to achieve rather than simply countering Russian moves.
    Russia is able to advance its malign influence where there 
is a nexus of corruption, organized crime, and under-
development. To tackle this, the head of an allied intelligence 
service recently told me that prosperity is the best antidote, 
as it increases the resilience of nations particularly in the 
Balkans and Southeast and Eastern Europe.
    I think this is why President Trump's endorsement of the 
Three Seas Initiative in Warsaw is important. It is an 
initiative that brings together the 12 EU member states between 
the Adriatic, the Baltic, and the Black Seas with the aim of 
advancing cross-border energy, transportation, and 
telecommunications infrastructure to better integrate their 
economies, unlock growth potential, and ensure that Russia 
cannot hold their economies hostage. This is why the 
congressional move to lift restrictions on LNG [Liquefied 
Natural Gas] exports to Europe is so important as well.
    So I actually believe an American prosperity agenda should 
advance U.S. investment in the region, putting economic ties on 
par with our security ties. It is entrepreneurship, after all, 
that provides jobs outside the control of political patronage 
networks, which are subject to Russian manipulation.
    Second, we need to project our military strength as a 
stabilizing force. The $4.8 billion European Deterrence 
Initiative request is a great contribution, especially on the 
eastern flank. But just as we have positioned forces, modest 
forces, in the east, we should do so in the southeast. This 
means transforming our forces that are in KFOR [Kosovo Forces], 
modest as they are, at Camp Bondsteel into what I would call a 
permanent presence to project security throughout the region 
and bolstering Black Sea security by approving the pending 
Patriot sale to Romania and providing lethal military 
assistance to Ukraine and Georgia.
    Third, the United States needs a sustained diplomatic 
offensive in the region. Our engagement is too episodic and not 
at a sufficient political level. Vice President Pence will soon 
visit Tallinn, Podgorica, and Tbilisi where he can follow up on 
the Three Seas prosperity agenda and I hope announce more steps 
to bolster our security commitments. But even as we work to 
ensure Montenegro's NATO membership is a success, we should 
have a diplomatic strategy that pursues a historic 
rapprochement with Serbia that ends Belgrade's dangerous 
hedging, which is why President [Aleksandar] Vucic's visit to 
Washington next week is so important.
    The United States should also resume its leadership in 
resolving the name dispute between Greece and Macedonia, paving 
the way for the latter's membership in NATO. To start, we 
should welcome the Greek Prime Minister to Washington to ensure 
Athens is a partner rather than an obstacle in the region, not 
tempted by Russian manipulation.
    Fourth, the most effective means to counter Russian malign 
influence is to expose it. As our electorates become educated 
on Russian influence operations, they become inoculated to its 
impact. This is why the Atlantic Council just last week in 
Warsaw convened the first-ever Open Source Summit to train 
journalists and activists on using unclassified techniques to 
expose and combat Russian influence. Through this work, we have 
been able to document in great detail what unfolded in 
Montenegro in an unclassified setting. We need to empower this 
type of work across the Alliance as it makes our democracies 
more resilient and our electorates less susceptible to 
manipulation.
    But most importantly, I think we need to keep our values as 
our guiding star and restore a credible vision of a Europe 
whole and free. Our message should be clear that as a result of 
reforms at home, all European states can ultimately be part of 
a secure and prosperous transatlantic community. Advancing a 
Europe whole and free should be a central plank of a broader 
effort to rally the West, as President Trump perhaps suggested 
in his Warsaw speech. I prefer the term ``free world'' to 
connote our community is not one of geography but one of ideas. 
Senator McCain, you put it, defense of the free world is the 
purpose where we try to rally folks around democratic 
institutions, rule of law, free media.
    As part of this strategy, the United States itself must 
remain a force for integration, not fragmentation in Europe. We 
cannot be ambivalent about this. We should never become an 
enabler of the Kremlin strategy to divide and weaken the 
European Union.
    Excluding the invasions of Ukraine and Georgia, the coup in 
Montenegro may be among the most brazen of Russia's influence 
operations. Its significance is that the Russians almost got 
away with it. But it is not unique. There are incidents. In 
October 2014, Russian Cossacks entered Banja Luka poised to 
intervene if Milorad Dodik had lost his election. Arms caches 
have been found in Hungary with ties to GRU agents. Russian 
fingerprints are on spectacular kidnappings in Estonia, 
instability and violence in Macedonia, efforts to stoke 
separatism in Gagauzia in Moldova, and to delegitimize Kosovo 
as a state, on top of the financing of extreme political 
parties across the continent.
    The Kremlin has drawn its own lessons from the muted 
response of the free world. I think it is important that we 
must end the cycle of impunity, continuing to raise the costs 
of not only Russia's actions in Ukraine, but also its 
interference in our democratic societies, even as we work to 
eliminate the opportunities for its malign influence throughout 
Europe.
    Thank you.
    [The prepared statement of Mr. Wilson follows:]

                 Prepared Statement by Damon M. Wilson
    Chairman McCain, Ranking Member Reed, Members of the Committee:
    In June 2014, NATO foreign ministers met in Brussels to consider 
Montenegro's accession to NATO. Secretary General Anders Fogh Rasmussen 
was working hard toward a consensus that Montenegro would be invited to 
begin accession talks to become NATO's next ally.
    Just three months prior, the Russian Federation had annexed Crimea. 
Many, including me, argued at the time that a NATO decision to invite 
Montenegro into the Alliance was not only merited on its own terms, but 
would also contribute to a decisive response to Russia's invasion of 
Ukraine. Others urged a delay, emphasizing de-escalation of the crisis 
unfolding in Ukraine.
    In the end, ambivalence among key allies and opposition by the 
United States led the Alliance to punt, forcing an exasperated 
Secretary General to announce that NATO would reconsider the issue by 
the end of 2015, 18 months later, removing this decision from the 
agenda of NATO leaders who would meet in Wales that September.
    As NATO ministers failed to reach consensus on Montenegro that 
tumultuous summer, Moscow saw an opening. NATO had blinked. With the 
successful seizure of Crimea and the emergence of what the Kremlin 
believed would become Novorossiya, Russia was on offense. The West was 
stunned. True to form, Moscow's success emboldened the Kremlin. The 
thinking in Moscow was that its seizure of Ukrainian territory would 
surely block Ukraine's move toward NATO and the European Union (EU). 
But might the Kremlin also be able to stop the integration process in 
Southeast Europe? The lack of a NATO decision on Montenegro signaled 
ambivalence, leaving a vacuum which Moscow was intent to fill.
    It was during this time that Aleksandar Sindjelic, leader of the 
paramilitary ``Serbian Wolves,'' began sending Serbian fighters to 
Ukraine to support Russia's seizure of Crimea and insurgency in the 
Donbass. While in Ukraine, Sindjelic worked with Russian nationalists 
who introduced him to Eduard Shirokov (he is also known as Eduard 
Shishmakov) and Vladimir Popov. Open source reporting has verified both 
as Russian military intelligence, or GRU, agents. \1\ Their encounter 
set in train the attempted coup in Montenegro.
---------------------------------------------------------------------------
    \1\ https://www.bellingcat.com/news/uk-and-europe/2017/03/25/
balkan-gambit-part-2-montenegro-zugzwang/
---------------------------------------------------------------------------
    Thanks to what we at the Atlantic Council call #DigitalSherlocks, 
or our digital forensic open source researchers, we know that Shirokov 
formerly served as deputy military attache at the Russian Embassy in 
Warsaw, where he was accused of espionage, declared persona non grata, 
and expelled in June 2014. His registered address in Russia is a GRU-
owned residence. He was issued a false passport in August 2016, two 
months before traveling to the Balkans. Popov, who had been spotted in 
Moldova with Gagauzian separatists in 2014, joined Shirokov in hosting 
Sindjelic in Moscow in September 2015, where they proposed the plot to 
derail Montenegro's NATO bid. Sindjelic received money from these 
Russian contacts to purchase weapons and supplies used in the 
operation, and to recruit participants.
    These events set in motion the extraordinarily brazen attempted 
coup in Montenegro last October. Open source reporting provides a 
compelling case that the GRU and its associates were directly involved 
in orchestrating this attempted coup in an effort to install a 
government friendly to Moscow and derail Montenegro's NATO accession. 
If the coup would have succeeded, it would have dealt an immeasurable 
blow to the Alliance and its credibility. It also would have brought to 
a halt the process of NATO enlargement.
    This incident is part of Russia's strategy to, in effect, make the 
world safe for autocracy and kleptocracy. As Russia itself has become 
more of an authoritarian kleptocracy, it has sought to reverse the 
post-Cold War order that has been so successful in advancing freedom, 
prosperity, and security in Europe. To achieve its objectives, Russia 
need only disrupt this process. Moscow however escalates its objectives 
with success, meaning that Russia has seen an opportunity to undermine 
both NATO and the EU from within through its malign influence 
operations.
    To date, the West has been flat footed. During the Obama 
administration, the United States and the EU enacted tough sanctions. 
But sanctions should be part of a strategy, not the entire strategy. 
The Trump administration has yet to articulate the nature of the 
Russian challenge, much less a strategy to counter it. Nonetheless, key 
elements of a response are in place or within reach.
    I would argue that the best defense is offense. Building on the 
president's recent address in Warsaw, we should focus on rallying the 
free world to defend itself and the values that underpin our freedom. 
To tackle malign Russian influence, I advocate a five-part strategy: 
promoting prosperity, bolstering our deterrent capabilities, pursuing a 
concerted diplomatic engagement strategy, exposing Russian actions, and 
anchoring our actions in our ideals--that is, offering our vision of 
what it is we are seeking to achieve rather than simply countering 
Russian moves.
    Russia is able to advance its malign influence where there is a 
nexus of corruption, organized crime, and underdevelopment. To tackle 
this, the head of an allied intelligence service recently told me that 
the best answer is to promote economic growth. Prosperity is the 
antidote as it increases the resilience of nations, particularly in 
Europe's East and Southeast.
    This is why President Trump's endorsement of the Three Seas 
Initiative in Warsaw is important. This initiative brings together the 
12 EU members between the Adriatic, Baltic, and Black Seas with the aim 
of advancing cross-border energy, transportation, and 
telecommunications infrastructure to better integrate their economies, 
unlock growth potential, and ensure Russia cannot hold their economies 
hostage. In effect, this Initiative is about completing Europe within 
these currently segmented markets. At the same time, this effort should 
aim to connect these EU members to non-EU members in Southeast Europe 
and Europe's East, helping to integrate structurally these economies 
into Europe.
    An American prosperity agenda should advance U.S. investment and 
financing in the region, putting our economic relationship on par with 
our security relationship in many of these nations. Furthermore, a 
United States policy of advancing one of our soft power strengths, 
entrepreneurship, would also help provide job growth outside the 
control of political patronage networks which are subject to Russian 
manipulation.
    Second, we need to project our military strength as a stabilizing 
force, especially in Europe's East and Southeast. I applaud the 
request, and urge Congressional approval, of the increase in funding 
for the European Deterrence Initiative from $3.4 billion to nearly $4.8 
billion. In addition, to counter malign Russian influence in Southeast 
Europe, the United States should transform its presence within KFOR 
into a permanent United States military presence at Camp Bondsteel, 
aimed at projecting security throughout the region. Congress should 
also approve the sale of the Patriot system to Romania, reinforcing the 
deterrent effect of the recent agreement to sell Patriots to Poland. 
Furthermore, Congress should return to the idea of providing 
substantial defensive lethal weaponry and combat training for Ukraine 
and Georgia.
    Third, the United States has an opportunity to build on President 
Trump's visit to Warsaw with a sustained diplomatic offensive in the 
region. Our engagement in the region is too episodic and not at a 
sufficient political level. Vice President Pence will soon visit 
Tallinn, Podgorica, and Tbilisi--providing an excellent opportunity to 
offer concrete follow up on the Three Seas prosperity agenda and 
announcing steps to bolster our security commitments. The President 
should agree to meet with Three Seas leaders at their summit in 
Bucharest next year, and end the isolation of the Hungarian Government 
which has only made its leaders more susceptible to Russian pressure. 
We must work to ensure Montenegro's NATO membership is a success and 
sharpen the message that reforms at home can lead to membership in NATO 
and the EU. We should pursue an historic rapprochement with Serbia that 
ends Belgrade's dangerous hedging. In this regard, I applaud the Vice 
President's hosting of Serbian President Vucic on Monday. The United 
States should also resume its leadership in resolving the name dispute 
between Greece and Macedonia, paving the way for the latter's 
membership in NATO as it consolidates domestic reforms. To start, we 
should welcome Greek Prime Minister Tsipras to Washington and work to 
ensure Athens is a joint partner in the region rather than an obstacle. 
Robust United States engagement deprives Russia's strategy of the void 
it seeks to fill.
    Fourth, in our open democratic societies, often the most effective 
means to counter Russian malign influence is to expose it. We do not 
need to counter disinformation with propaganda of our own. However, we 
need our own citizens to expose Russian actions and disinformation. As 
our electorates become educated on Russian influence operations, they 
become inoculated to its impact. To this end, the Atlantic Council's 
Digital Forensic Research Lab with its partner Bellingcat last week 
hosted in Warsaw the first Open Source (``OS 360") summit to train 
journalists and activists on using unclassified techniques to expose 
and combat Russian influence. We need to empower this type of work 
across our Alliance as it makes our democracies more resilient and our 
electorates less susceptible to manipulation.
    Most importantly, we need to keep our values as our guiding star 
and restore a credible vision of a Europe whole and free. The lack of a 
North Star has opened a tempting new front for the Kremlin's efforts to 
rewrite the rules of the post-Cold War era. The United States should 
join with the EU to re-establish a clear, common vision for the 
continent. Our message should be that as a result of reforms at home, 
all European states can ultimately be part of a secure and prosperous 
transatlantic community. Advancing a Europe whole and free should be a 
central plank of a broader effort to rally the West, as President Trump 
suggested in his Warsaw Speech. I prefer the term ``free world'' to 
connote our community is not one of geography, but one of ideals--
democratic institutions, human rights, rule of law, free media, and a 
vibrant civil society.
    As part of this strategy, the United States must remain a force for 
integration, not fragmentation, in Europe. Russia's strategy is to 
undermine the EU. The administration cannot be ambivalent about this. 
We should never become an enabler of the Kremlin strategy to divide and 
weaken the EU.
    Excluding the invasions of Ukraine and Georgia, the coup in 
Montenegro may be among the most brazen of Russia's influence 
operations. Its significance is that the Russians almost got away with 
it. But it is by no means unique. In October 2014, Russian Cossacks 
entered Banja Luka poised to intervene if Milorad Dodik had lost his 
election. Arms caches have been found in Hungary with ties to GRU 
agents. Russian fingerprints are on a spectacular kidnapping in 
Estonia, instability and violence in Macedonia, efforts to stoke 
separatism in Moldova and delegitimize Kosovo as a state, and financing 
of extreme political parties across the continent.
    The Kremlin has drawn its own lessons from the muted response of 
the free world. We must end the cycle of impunity, continuing to raise 
the costs of not only Russia's actions in Ukraine, but also its 
interference in our own societies, even as we work to eliminate 
opportunities for its malign influence throughout Europe.
    The painful lesson of the 20th century is that American ambivalence 
only increases the likelihood of conflict in Europe and a direct 
challenge to our national interests. Through sustained leadership and 
engagement, anchored in our own values and vision, we can counter the 
malign influence of Putin's Russia.

    Chairman McCain. Well, thank you, Mr. Wilson, and thank the 
witnesses.
    Let us talk for a minute, Mr. Wilson, about Serbia. There 
are unique ties between Serbia and Russia. Mr. Vucic seems to 
be almost schizophrenic. He wants good relations with the 
United States. Yet he also understands the Serbian people's 
affinity to Russia. Yet he also understands the Serbian 
people's look is to the West, not to the East. As you say, he 
is coming to town next week. That could be a very seminal 
event. I had a long lunch with him in Belgrade.
    How do you think we should treat Mr. Vucic?
    Mr. Wilson. I think this is a strategic opening and we 
should play, play for Serbia, not in a way that--I am not 
unaware of some of the challenges to Serbian democracy 
internally. But I think we need to recognize that Vucic has 
been hedging between Russia and Europe and the West in part 
because he sees the EU as distant and uncertain in its 
commitment to Serbia's place in Europe and the United States is 
an inconsistent and somewhat distant partner. But we have an 
opportunity right now.
    I had the opportunity to meet with President Vucic in 
Belgrade at the beginning of this year. This coup in Montenegro 
is a wakeup call not just for us but for those sitting in 
Belgrade. It was forces within his intelligence services, for 
which he probably was completely unaware, that were complicit 
in this. Shortly after the exposure of this coup, an arms cache 
was found in Belgrade on the route that is driven from his 
family's house. I think this has had a psychological impact.
    The Serbs believe that they can hedge and play both sides. 
Most Serbs know the reality is their economy is overwhelmingly 
anchored in Europe. Their interests are overwhelmingly anchored 
in Europe. I think with clarity from the United States, 
coordinated with Germany and the European Union, that we can 
help Mr. Vucic understand that hedging is actually playing with 
fire and that their ability to maneuver this poses actually 
risk to Serbia and its future over time.
    One of the challenges we have is that unfortunately Serbia 
allowed the opening of a civilian emergency response base in 
Nis in southern Serbia where the Russians have been breathing 
down his neck to obtain diplomatic immunity for their--it is 
the Ministry of Emergencies. The Ministry of Emergencies has a 
notorious record of being involved in nefarious activities in 
this region. I think part of what our presence can do by 
transforming our own presence at Bondsteel, saying it is a 
presence for the region, is to help signal to Serbia that we 
will not be a fair-weather friend. This is not a partisan 
issue. We can have a consistent American strategy of 
engagement, supporting their transformation at home and 
welcoming them in our community.
    Chairman McCain. Ms. Samp, do you have anything to add to 
that?
    Ms. Samp. I am sorry. I thought you were asking a separate 
question.
    I completely endorse what Damon said and I do not have 
anything of substance to add.
    Chairman McCain. What about the influence of the church, 
Ms. Samp, which is clearly Russia-aligned?
    Ms. Samp. It is yet another tool. It is yet another way 
that they can--you know, attempts at coercion. It is one they 
leverage to great success with the people. I think it is not 
something that gives them an advantage that cannot be overcome, 
but it certainly does create strong ties, both historical, 
cultural, and other, with the region. It is yet another tool 
that the Russians have in the region.
    Chairman McCain. Mr. Bugajski?
    Mr. Bugajski. I fully agree with Damon. I would simply add 
a couple of things about Serbia's position.
    I think Serbia now stands in front of a choice. Does it 
ally itself with a Russia that is increasingly aggressive, 
assertive, and expansionist in Europe and anti-American? Or 
does it align itself with the European Union, with the Western 
community, with the international alliance, including NATO, 
which does not mean NATO membership straight away but 
eventually?
    I would add this also. Vucic has to be careful because 
Putin could possibly pull Serbia into a conflict that he 
engineers in a neighboring country, whether in Bosnia-
Herzegovina, if he pushes for separatism. We have already heard 
about this in terms of Russian activities in Republika Srpska, 
in the Serbian entity in Bosnia. Both Croatia and Serbia could 
be brought into a conflict. Similarly in Kosovo. If Russia were 
to provoke some sort of conflict with the minority, Serbia 
itself could be drawn into the conflict. Similarly in 
Macedonia.
    So what I would say to Vucic is be on the right side of 
history here. Russia does not have your interests at heart. We 
do. Russia does not want you to make an independent choice in 
terms of your international alliances. Russia is willing to 
drag you into a conflict. We want to give you security.
    Chairman McCain. Yet the ethnic and historic affinity 
between Russia and Serbia is also very well known.
    Mr. Bugajski. Can I add to that?
    Chairman McCain. Yes, go ahead.
    Mr. Bugajski. I think that is exaggerated. If you look at 
history, even recent history, which country broke first with 
Stalin? It was Yugoslavia. It was Tito. So it was a relatively 
non-aligned country.
    Chairman McCain. Good point.
    Mr. Bugajski. If you look through history, Russia has 
manipulated both Serbia and Bulgaria in its policies in the 
Balkans at different times. Of course, it taps into that 
historical memory and exaggerates it in order to have influence 
in both countries.
    Chairman McCain. Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you to the panel for excellent testimony.
    Ms. Samp, you raised an interesting sort of situation where 
you said a year ago, we would have predicted that or we would 
not have predicted. So let us look ahead. What is their plan, 
more or less--the Russians? What is the vulnerable point that 
they are trying to exploit right now or points?
    Ms. Samp. I mean, I wish I knew, sir, where we could expect 
them to go next precisely. I think what we know for sure is 
that they will continue what they are doing. They will continue 
to try to undermine the international order. They want to cut 
the United States down a notch. They want to break Western 
unity. So we cannot call shots they do not like or hold them 
accountable to the rule of law. So what we can say is this kind 
of destabilizing activity will continue.
    I think if you look across the map, there is instability in 
Central Asia. I think the Balkans are a target-rich 
environment. They already have peacekeepers in Moldova. So I 
think continued agitation in Ukraine is something that we can 
expect. It is hard to know exactly precisely because they like 
to experiment, but the one thing that we do know for sure is 
that they will continue to sow instability. So we have to 
better prepare for it.
    Senator Reed. Mr. Wilson, any specific details you would 
add?
    Ms. Samp. In terms of better preparing?
    Senator Reed. No, no. To Mr. Wilson, are you picking up 
anything where they are beginning to focus or coalesce on a 
particular target or targets, or is it just instability 
everywhere, exploit ad hoc what you can?
    Mr. Wilson. I do have specific concerns. I think we have 
seen Russian tactics actually quite savvy in that they know 
they cannot actually compete head on and they cannot compete 
against tough targets. So they go for the vulnerable targets, 
places where they know where our response would be mixed, weak, 
or the pushback would be ambiguous because they do appreciate 
they would fail in a head-on confrontation.
    That raises for me two concerns. One is Belarus. Ms. Samp 
mentioned the Zapad exercise. This is traditionally the largest 
exercise in the western military district of Russia. In the 
past, they have used it to exercise a nuclear strike on Warsaw, 
for example. My fear right now is given the tenuous 
relationship between President Lukashenko in Minsk, Belarus and 
Mr. Putin, that with a major movement of Russian forces on the 
territory of Belarus as part of Zapad, that perhaps they do not 
leave or that perhaps they do something that tightens their 
grip around Belarus, knowing that this is a soft target. This 
would allow actually Putin to continue to rally the nationalist 
card at home, demonstrate his greatness, and probably not 
encounter the wrath of the West in the way that Donbas has 
turned into a bigger problem for him.
    Second, I do watch very closely on Moldova. There is an 
agreement right now between the Moldovans and the Ukrainians to 
finally try to impose border controls on the eastern flank of 
Transnistria, the slice of territory where Russian troops are 
stationed. It is an agreement that the Ukrainians would allow 
the Moldovan border units to be based on Ukrainian territory 
since they cannot be on Transnistrian territory. This would be 
an excellent way to control illicit flows across that border, 
but it also would put up a greater barrier to Russia's 
potential freedom of maneuver. I do not think they would accept 
that very easily. They were hoping to do that this summer, and 
I think it could be a flashpoint.
    Senator Reed. Mr. Bugajski, please. Any comments? I have 
just a minute.
    Mr. Bugajski. Thank you. I would reiterate what Damon has 
said in terms of flashpoints.
    I would add one more. South Caucasus. Even as we speak, 
Russia has been moving the border of South Ossetia, which is 
occupied territory, deeper into Georgia. The danger there is--I 
think the objective is eventually to threaten and cut off 
pipelines and transportation systems between the Caspian Basin 
and Europe because there is a thin wedge of Georgia through 
which major energy, gas and oil, resources go through 
transportation to the coast and then out to Turkey to the 
Balkans and into Europe. Russia is now within a few hundred 
yards of capabilities of cutting off this pipeline in the event 
of conflict.
    In addition, the conflict over Nagorna-Karabakh between 
Armenia and Azerbaijan--that has to be watched extremely 
carefully. Every so often it flares up. I think the Azeris are 
coming to a point where they are now extremely frustrated with 
ever getting these occupied territories back. There seems to be 
no progress in any agreements. It is a bit like the Minsk 
process. It is their own Minsk process that is frozen.
    So these potential flashpoints either Russia engineers or 
some local conflict mushrooms into a Russian intervention.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Wilson, you touched on this very briefly, and I think 
my overemphasizing it, which I have been doing admittedly, is 
not because I am from an oil and gas State, because it seems so 
obvious to me that what is going right now could have a huge 
impact on Russia and on everything we have been talking about 
this morning. General [Philip M.] Breedlove, when he was 
talking to this committee just the other day--he said Russia is 
very apt to use energy dependence and energy capabilities as 
one of the tools, and so more available sources I think would 
help to defuse the tool that they use. We are talking about all 
the dependency that those countries that we are so concerned 
with have on Russia because they have the control. Now, to a 
lesser degree, I guess you could argue that Iran also has 
exports. But in the case of Russia, 68 percent of their exports 
are oil and gas.
    I was very proud of the President the other day when he was 
in Poland and he drove this home. For all those people who 
think maybe he is too cozy with Putin, this statement did not 
help him any. They should defuse some of that notion. He said 
we are committed to securing your access to energy so Poland 
and its neighbors are never again held hostage to a single 
supplier of energy.
    So I would like to hear from each one of you how 
significant you think this is. The ban has lifted. We now no 
longer have the war on fossil fuels. So I think good things are 
going to happen. What do you think?
    Mr. Wilson. Senator, I think it is terrific. I had the 
opportunity--I was at the President's speech in Warsaw, and 
that particular line was received extremely well. Many of our 
friends in this region remember the two dramatic gas cutoffs 
that sent literal shivers through their populations, that the 
Russians have undoubtedly proved that they will use this as a 
weapon not just as a tool of coercion, which they do on a daily 
basis.
    The lifting of the LNG export restrictions was significant 
both for psychological impact, as well as for a commercial 
impact. At the end of the day, we do not need to force all of 
Russian natural resources out of the market. We need Russia to 
be restricted so that it has to play by the market. I think 
this is where it is a fairly significant thing. The beginning 
of an American LNG shipment had arrived in Poland just in the 
past 6 weeks. This is the news of the year in Poland.
    The announcement last month of a breakthrough in 
negotiating an LNG terminal on Kirk Island in Croatia that 
would be linked up to Hungary through a small pipeline is the 
lifeline that Hungary needs itself. So there are two areas 
where we have real problems, Hungary and Serbia, in large part 
because the Russians have a stranglehold on both energy 
supplies and energy distribution.
    Senator Inhofe. I think others agree with the significance 
of that.
    I was actually invited to Lithuania by the President when 
they were opening their first LNG terminal, and they had other 
countries coming in who were just elated with that.
    Mr. Bugajski, when you look at the other aspirants, of 
course, we saw that Montenegro went through all kinds of 
coercion. I am kind of thinking now how the fact that they were 
able to come out ahead on this thing--what affect do you think 
this has on the other countries, Bosnia and Macedonia, Kosovo 
and the others, the fact that they won, Russia lost? What do 
you think?
    Mr. Bugajski. There are two things I would say. Montenegro, 
the fact that it withstood a Russian attempt at overthrowing 
the government, sends a warning, if you like, to the region 
that Russia may not be averse to attempting a similar scenario 
in other countries. So in other words, they are going to be 
better prepared, hopefully with our assistance, to withstand 
such an assault.
    Secondly, I would say the positive results of Montenegro's 
NATO membership. In other words, remember, this is a country 
that only recently regained its independence, that many 
dismissed as being unviable, too small. Now this country is 
becoming successful. It has entered our security alliance. It 
is part of our security system.
    Senator Inhofe. The others are watching.
    Mr. Bugajski. The others are watching carefully. There are 
several countries that would like to join, at least most of 
Bosnia would. Certainly Kosovo would. Macedonia is desperate 
for NATO membership, but it is blocked, unfortunately, by this 
name dispute with Greece.
    I think we have to refocus attention on the region to see--
and this I think would be the best way to push the Russians 
back, to try and move these countries as quickly as possible 
and as effectively as possible into the Alliance because they 
will contribute. They are very pro-American. They want to 
contribute to the Alliance.
    Senator Inhofe. I appreciate that.
    My time has expired, but one last question to Ms. Samp. You 
made the comment, ``The Army combat presence in Europe remains 
a full brigade strength below what it was in 2012 prior to the 
renewed tensions with Russia.'' I am wondering what some of our 
allies over there think because the budget that the President 
came out with is about the same as we were criticizing, you and 
I was also prior to this. What kind of effect that might have 
on our allies over there.
    Ms. Samp. So United States combat force presence in Europe, 
as you know, has decreased quite dramatically since the end of 
the Cold War. This was a recognition of a new threat 
environment, and so it rightfully went down from about 35,000 
troops in the mid-1980s. We are now at about 62,000 troops. The 
rotational forces that we have added under the European 
Reassurance Initiative has brought us by about 6,000. So for 
the first time in 25 years, the trend line of combat forces in 
Europe has begun to tick up.
    There was a decision made in 2012 that was quite 
controversial at the time to remove two heavy brigades, two 
armored brigade combat teams from the European continent, which 
left us with only two BCTs [Brigade Combat Team], one infantry 
airborne and another striker. So we have no heavy armored 
forces in Europe at the moment, save for a rotational force 
added under ERI.
    At the time the decision was not well received by allies. 
If U.S. troops are the most physical manifestation of the 
commitment of the United States, then the removal of those 
forces did send a message that the United States is ready to 
leave Europe and pivot perhaps to Asia.
    With a return of forces to the continent, I think the 
message would be welcomed by allies for one and also be seen by 
Russia as a symbol of commitment to deterrence. I think it 
would increase our leverage in the region.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you all for being here today.
    Earlier this year, Senator Gardner and I introduced a 
resolution reaffirming the United States' unwavering commitment 
to NATO. As you well know, questions have been raised, notably 
in the White House by the President, about that commitment. The 
resolution is cosponsored by Senators Rubio, McCaskill, 
Portman, Feinstein, Johnson, Kaine, Shaheen, and Booker, a good 
bipartisan group.
    During these times of extraordinary global uncertainty, 
even as our President is in France as we speak, and 
increasingly troubling Russian aggression, I believe--and many 
of my colleagues do as well--that we need to reassure our NATO 
allies that the United States remains strongly committed to 
this essential alliance.
    I understand the Ambassador from Montenegro has left and 
decided, understandably, not to take questions. But I wonder 
how Montenegro's accession to NATO benefits the Alliance and 
the United States in particular. If you have comments on that 
topic, I would appreciate them, to all of the witnesses.
    Ms. Samp. Thank you for that question.
    I was firmly in the camp of supporting Montenegro's 
accession to the Alliance. Not only did I think it added more 
assets than liabilities in terms of its geography, it plugged 
an important hole in the NATO map along the Adriatic, which a 
couple years earlier Russia had tried to exploit and put ships 
in a port there. Their military forces are small but they do 
bring niche capabilities. They only have about 2,000 forces. 
They spend about 1.6 percent on defense. None of this makes 
them a super star new ally, but it also does not make them the 
least in any of the categories that NATO ranks allies against. 
That is one. That is kind of the more, I guess, concrete 
considerations.
    Now there are also symbolic considerations, and these I 
think were even more important in Montenegro's case because it 
affirmed NATO's open door which, as we just discussed, are 
important to other aspirants for the Alliance. More 
importantly, it showed that Russia is not going to have veto 
power over the decisions of NATO. So I think for both concrete 
and symbolic reasons, allowing Montenegro into the Alliance 
made us all stronger.
    Senator Blumenthal. By symbolic, I assume you mean moral 
reasons as well. Here is a people who wants to defend 
themselves against Russian aggression. We do not care whether 
it is a small country. We do not care whether it is a large 
country. We do not care whether it is powerful or not. America 
believes in defending freedom, and NATO is a means to do it in 
Europe. Our commitment to NATO is based not just on the 
strength of specific allies in numbers of troops or tanks or 
planes, but on their will to defend themselves and their 
commitment to freedom.
    Ms. Samp. Exactly. We gave them a list of things that they 
needed to do to join this club. They did it. They met their 
commitments, and we needed to meet ours and, as I said, 
reinforce NATO's open door, which is a tenet of the Washington 
Treaty.
    Senator Blumenthal. I welcome other comments if you have 
any.
    Mr. Bugajski. I would add that it also sends a very 
positive signal to other countries in the region to meet the 
standards for NATO entry. Remember, entering NATO is not just a 
question of asking for it. You have to meet certain standards, 
civil military standards, military organization, and so forth. 
If Montenegro can do it, then other countries can do it.
    Also to Serbia it sends a very positive signal. In other 
words, would you want to be linked with the most modern, 
sophisticated, effective military organization in the world, or 
with an increasingly obsolete Russian military? In other words, 
I know Serbia has been training with NATO, but it has also 
participated in exercises with Russian and Belarussian forces. 
They have to be weaned away from that dependency relationship 
that Russia is trying to create with them, and I think NATO is 
one of the ways it can be done.
    Mr. Wilson. I just briefly would add, sir, I think the 
decision to welcome Montenegro not only sort of projects 
confidence in our Alliance, but I think it was in part because 
of some of our ambivalence in the process that the Russians 
smelled an opening. So I think it is the clarity of our views 
on this that it actually is part of our preventive defense.
    It does do some things that are strategically useful, 
closing the northern littoral of the Mediterranean. This is the 
last strip of land, which does not sound all that significant 
to us, and yet that is why the Russians were focused on the 
potential of Bar Port, potentially as the one place where their 
fleet could have port call rights. They pressured the 
government several years ago to give them that and the 
government turned them down. This was significant for the 
Russians, and we have taken that off the board.
    Senator McCain mentioned the role of the Orthodox Church. A 
country like Montenegro has a deeply sophisticated 
understanding of how the Orthodox Church is used as an 
instrument of advancing Russian geopolitical instruments. That 
is a pretty useful contribution to the Alliance for them to be 
in that network and to be sharing that type of information. 
Importantly, I think it is the stabilizing force for the 
region.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you to our witnesses today. This has been a very, 
very helpful discussion I think not only for the folks here but 
also those that serve on other various important committees 
here in the United States Senate as well.
    As we witness continued Russian influence throughout the 
Baltics and the Balkans, I am really worried that we are going 
to see another Crimea-like scenario. Specifically, I am 
concerned about Russia's activities in Serbia and its impact on 
Iowa's sister state, Kosovo. In fact, just this March, General 
Scaparrotti echoed these very same concerns.
    This is for all of our panelists, please. Can you describe 
to me how Serbia is attempting to undermine Kosovo and what 
that means for the stability of the region overall?
    Mr. Bugajski. Well, to begin with, thank you for the 
question.
    To begin with, Serbia does not recognize Kosovo as an 
independent state.
    Senator Ernst. Exactly.
    Mr. Bugajski. Neither do five European Union countries. 
This is where I think we could be more effective in trying to 
convince those five countries that do not recognize Kosovo to 
go ahead and do so. That would complete the picture in European 
Union.
    Russia blocks Kosovo's entry into the United Nations and to 
the OSCE [Organization for Security and Co-operation in Europe] 
and other international organizations. There has to be pushback 
on this as well. If we are serious about creating and 
consolidating a democratic state in Kosovo, I think it has to 
be a member of all international organizations.
    Serbia will not recognize Kosovo anytime soon, but there 
are things that can be done. Quite a few things have been done 
in recent years to try and normalize relations. But I think 
ultimately Serbia's entry into the European Union and eventual 
entry into NATO hinges on recognizing Kosovo as an equal, in 
other words, as an independent state. I think, again, we could 
do more with Vucic to try and persuade him, if not recognition, 
at least to not allow Russia to use Serbia to put pressure on 
Kosovo.
    I will tell you one very interesting thing from the Russian 
angle. We have this idea that the Russian-Serbian relationship 
is so close. Do you know that the Russians have threatened 
Serbia that if you petition to join NATO, we will no longer 
block Kosovo's entry into the United Nations? In other words, 
they are using Kosovo as a tool against Serbia. We have to 
think of creative ways in which we deny them that tool to 
influence Serbia.
    Senator Ernst. Very good. Thank you for that input.
    Yes, Mr. Wilson.
    Mr. Wilson. I might just add to Mr. Bugajski that we have 
seen Russian efforts and sometimes Russian through Serbia 
efforts to delegitimize Kosovo as a state, to block it as it 
tries to join UNESCO [United States Educational, Scientific, 
and Cultural Organization], things like that that have to 
trappings of state hold. We have seen more disturbingly sort of 
provocations, this extraordinary Orthodox draped train that 
sent down to the border over the summer very much as a 
provocation. It is true that Belgrade now has sort of 
extinguished democratic choice among the Serbs in Kosovo, and 
they really are under control of Belgrade right now.
    Our task should be to work with the EU to broker this 
agreement, a more durable agreement, between Serbia and Kosovo 
to orchestrate our own historic reconciliation with Serbia, 
recognizing that the story of our NATO alliance as former 
adversaries coming together as allies. That is the entire 
narrative of what this process has been.
    I do think that we could do something further. We have 
about maybe 700 forces in KFOR at Camp Bondsteel, and 
oftentimes the--I remember when I served at NATO, it was always 
the pressure. Every 6 months, the U.S. Defense Secretary would 
want to know how can we draw down these forces, how many more 
troops can come out. I think if we actually just with some 
clarity said that our presence there is an enduring presence to 
project stability for the region, capacity building for the 
region, that Camp Bondsteel remains, it actually would change 
the mentality of the region not just seeing it limited as a 
stabilizing force in Kosovo, but as an expression of America's 
security commitment to the entire region. I think this would 
both, strangely enough, reassure Serbia that Kosovo will be 
under control while also actually providing incentives for 
Serbia to work with us.
    Senator Ernst. I think our Kosovo friends would greatly 
appreciate that as well.
    Ms. Samp, as you mentioned, just very briefly in your 
testimony, Russia has been engaged in a lot of nefarious 
activities in the gray zone, including propaganda, economic 
coercion, and political subversion and various types of 
interference. In your opinion, what should the United States 
and our NATO allies be doing to discourage the type of 
activities that we see at the gray zone?
    Ms. Samp. Thank you for that question.
    The gray zone is one of our hardest challenges. Obviously, 
it does not have the article 5 guarantee that Russia so 
respects and that keeps Russia's conventional interference in 
allied territory at bay. We saw them push into the gray zone in 
Georgia, Ukraine, and in other ways in countries that we are 
talking about in the Balkans today.
    So what can we do to help shore up their defenses? A lot of 
this is going to be things not by the U.S. Military, but by the 
U.S. State Department. It is going to be things that build 
their resistance, their resilience, increase their media train 
so that their journalists are able to identify and attribute 
stories instead of just copying and pasting from RT [Russia 
Today] or Sputnik. It is going to be things that enhance and 
share lessons learned on cyber defenses. It is going to be 
doing things that add oversight to their processes to decrease 
corruption and increase transparency. So I would not say there 
is a huge role for NATO in the gray zone other than to continue 
to partner with these countries, continue to build their 
capacity, their capability, involve them in exercises. I do not 
see a U.S. troop presence, for example, in gray zone territory, 
but I think this is going to be a lot of work on the resilience 
side and through the State Department.
    Senator Ernst. Thank you. I appreciate it.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. I am going to take the opportunity here 
to sort of follow up on Senator Ernst's questions with regard 
to the gray zone in particular. Have you had a chance, Ms. 
Samp, to look at any of the authorization language that we 
recently passed trying to get our hands around better tools for 
working in that kind of an environment in Eastern Europe and 
trying to apply some of the lessons learned from other 
conflicts in the world?
    Ms. Samp. I was happy to see that the fiscal year 2017 NDAA 
approved the Global Engagement Center. I was less happy to see 
that its funding was cut at the same time its mandate was 
expanded. But I know that there have been other efforts.
    Senator Heinrich. I would love to, in follow-up to this, 
share some language that we incorporated--Senator Ernst and I--
in the Emerging Threats Subcommittee to try and wrap our hands 
around some of these challenges and see what you think of that, 
really for all of you.
    I was glad to hear you talk about the importance of our 
State Department and public diplomacy efforts in this region. 
You know, a major part of our strategy for Russian malign 
influence has to be proactive not just reactive, and we 
certainly need a robust public diplomacy effort and 
transparency if we are going to be able to combat the kind of 
propaganda vacuum that they often operate in. In some places, 
there just is not a counterbalancing communications effort to 
RT or Sputnik.
    Can you talk a little bit about the strength and capability 
of that? What authorities and, frankly, resources do we lack in 
terms of that effort? Go ahead, Ms. Samp.
    Ms. Samp. So I would say our officials who conduct public 
diplomacy are very skilled. When I say that we lack capacity in 
the region, it is not to in any way impugn----
    Senator Heinrich. It is not the quality of the individuals.
    Ms. Samp.--the quality of the people doing the work. That 
said, there is not enough of them. It is not coordinated 
enough. It does not have enough money. Russia spends a billion 
dollars a year on propaganda efforts. I would say we are also 
not using every tool that we have available to us. Why are we 
not using military information support teams in Eastern Europe? 
Why are we not using that? That is a tool that would allow us 
to present truthful information to publics that would otherwise 
be impenetrable to a U.S. message. It does this by veiling 
attribution. This is not against our values, but it does allow 
us to press advantages. Why are we not doing that? Why are we 
not working more with the public sector, with social media, 
with advertising? Again, as I said, I think if Russia can be 
creative, then we need to be too, and this is an area where we 
have not gotten our act together, quite frankly.
    Senator Heinrich. Mr. Wilson, you listed exposing Russian 
actions as one of your five--the list of things that we should 
be doing aggressively. Can you talk a little bit more about 
that and how we make that more robust and more assertive and 
fill that vacuum?
    Mr. Wilson. Certainly. Let me pick up on that last word, 
the ``vacuum.'' I actually think the gray zone, as you call it, 
is one of the most important parts of where this will play out 
because it is where Russia sees its buffer. It is where Russia 
intentionally sows chaos and insecurity. From our interests, if 
these countries not just survive but if they thrive, this is an 
existential challenge to the model of corrupt authoritarianism. 
Therefore, Mr. Putin sees their success as something that 
actually painfully knocks on his door close to home.
    That is why I think part of our strategy, yes, is to 
expose. Ukrainian journalists are actually at the forefront of 
actually understanding how to manage this now. We can learn 
from them.
    But I think more importantly the people in the region 
understand that their future is uncertain, that Brussels and 
Washington are not quite certain what to do about it. I think 
the best thing we could do to fill the vacuum is to actually 
have clarity that our goal ultimately is to eliminate the 
uncertainty of where these countries lie, that they are not 
going to be in some gray zone between East and West. They have 
an opportunity to gain a rightful place as part of the free 
world, if you will, and thereby a concerted joint NATO-United 
States-EU strategy that is focused on growing their economies, 
strengthening their defense capacities and their militaries, 
and helping to create Europe on their ground, visa-free travel, 
independent media, this I think is part of the broader strategy 
if they could see a coordinated effort out of Washington, 
Brussels, Berlin that was committed to operationalizing the 
fact that they have a future option in the free world if they 
can get it right at home.
    Senator Heinrich. I am out of time, but just a real quick 
yes or no. Is it a problem that we seem to be sending all of 
our allies mixed messages, that we undermine transparency, and 
we are creating overtures--the President to Vladimir Putin--at 
the same time as we are saying, hey, we are going to be with 
you, you can rely on us?
    Mr. Wilson. I think it is a problem.
    Mr. Bugajski. I would say there is a lot of confusion in 
Europe what is going on.
    Ms. Samp. It only helps Putin.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate the witnesses? testimony here on a very 
important topic.
    I wanted to go back to the issue Senator Inhofe raised on 
energy, and being from an energy-producing State like he is, I 
think we are just scratching the surface on finally realizing 
how important this instrument of United States power can be to 
bolster our allies and push back on the Russians, to be 
perfectly honest.
    Mr. Wilson, you and I worked in the Bush administration on 
an important energy project, the southern corridor pipeline, or 
the B-T-C pipeline that a lot of people know it by, Baku-
Tblisi-Ceyhan, that is a dual oil and gas pipeline from the 
Caspian Sea out into the Mediterranean into southern Europe. 
When we worked on that, the Russians certainly were not 
supportive of that initiative. Were they?
    Mr. Wilson. Dramatically opposed.
    Senator Sullivan. Yes, and that was U.S. diplomacy and 
leadership that drove that very important southern corridor 
strategy.
    We passed, and I was a big supporter recently of the Iran 
and Russia sanctions bill. There are elements of that, though--
it is now becoming apparent--that could possibly undermine the 
completion of that southern corridor pipeline, particularly on 
the gas side. Are you aware of that at all?
    Mr. Wilson. In the legislation or----
    Senator Sullivan. Yes, in the legislation.
    Mr. Wilson. I do not know the details of that.
    Senator Sullivan. We can get that to you. I would welcome 
the panel's opinion. There might be an opportunity to tweak 
some of the legislation on the House side or in the conference 
to make sure that we are not undermining actually one of the 
big geostrategic plays that we undertook against Russia, which 
was to help those countries to develop that southern corridor. 
Would you be supportive of that if we were somehow 
inadvertently undermining actually a very good energy strategy 
that we have been undertaking?
    By the way, the Clinton administration, then the Bush 
administration, and even the Obama administration were all 
supporters of the southern corridor pipeline.
    Mr. Wilson. I think we have yet to fully maximize our 
harnessing of America's energy strength. You cited the example 
of Baku-Tbilisi-Ceyhan, which was a huge strategic and 
commercial success. We have not had the win that we need still 
in finishing the southern corridor effort, and it is in part--I 
think as Senator Inhofe mentioned, adding LNG exports into the 
mix is useful. But there are still real challenges in the 
pipeline structure, particularly when it comes to the Western 
Balkans, Serbia, Hungary in particular. I think this is an area 
where in the absence of a combined, concerted diplomatic effort 
that is based in the commerciality, it is really hard to get 
these done. At the same time, we have undermined our own 
interests and efforts because Nordstream 1, Nordstream 2 have 
really helped drain--negatively impacted some of the economics 
that would be required to get this right.
    Senator Sullivan. Let me turn to the issue of allies that I 
think most members of the committee here are focused on. Would 
you agree that one of the most important strategic advantages 
that we have as a country globally, but particularly in Europe, 
is that the United States is an ally-rich nation and our 
adversaries and potential adversaries like Russia are ally-
poor?
    Mr. Wilson. I think this is sometimes something that we do 
not fully as a Nation appreciate, the historically unique asset 
we have in a global network of alliances of countries that will 
stand with us, go into the fight with us, and that this is a 
huge force multiplying effect for our influence and our power 
in the world.
    Senator Sullivan. Is it not also true that we--do you not 
believe that we should be looking to deepen those alliances and 
expand them particularly when it is very clear that Russia's--
one of their top strategic goals, as was pointed out in 
testimony, is to undermine and split our alliances?
    Mr. Wilson. I think that is right. I mean, nations around 
the world understand that Russia's strong relationships are 
often based on coercion and intimidation. That is not how we 
operate. So I think the value that these alliances represent 
for us means that we actually have to invest in them--they do 
not work without our leadership--and look for opportunities to 
actually be able to welcome others into those camps.
    Senator Sullivan. Let me just pose one final question to 
the entire panel on this issue of allies. You know, a number of 
us, myself included, had some concerns about when President 
Trump was a candidate talking about alliances, he did not seem 
to understand the importance, and a number of us had concerns 
about maybe the Trump administration was not focusing enough on 
our alliances. This is in addition to the Obama administration. 
Some of you might remember the Atlantic piece last year 
entitled ``The Obama Doctrine,'' and if you read it, it 
essentially was President Obama openly being dismissive of most 
of the leaders of our key allies. It certainly was not an ally-
building exercise as well.
    What more can the Trump administration or the Members of 
Congress be doing to enable us to deepen and expand our 
alliances, which clearly would help advance the national 
security interests of the United States?
    Ms. Samp. Thank you for that question.
    I think it is incredibly important that we strengthen our 
alliances. Our alliances are our greatest foreign policy 
advantage. Period. Full stop. It is what other authoritarian 
states look at and say I want that. Can I have that? There is 
no magnetism. As Damon said, Russia's alliances are built off 
of coercion. So we need to protect them. The way that we can do 
that--Damon also mentioned U.S. leadership--is incredibly 
important in NATO. NATO does not work without U.S. leadership. 
Deterrence does not work without U.S. leadership, and so 
attending meetings, holding back maybe when you would like to 
criticize aloud, and keeping things inside a room, I think 
these all are important signals. Right? It is optics but it is 
important when you are talking about alliance because you are 
not just sending messages to friends. You are sending messages 
to adversaries about the U.S. commitment.
    As you know, credible deterrence is built off of two 
things: capability and intent. Putin has to believe that we not 
only have the power to defend our alliances, but that we have 
the will and intent to defend our alliances. The statements 
that I have seen so far I think undermine that deterrence.
    Mr. Bugajski. If I could add, I think this administration 
has actually quite a strong national security team. The next 
step, though, would be for that national security team to 
devise a strong national security doctrine, which includes the 
purpose and capabilities of the NATO alliance. I think deeds 
are more important than words as well. In other words, this 
enhanced forward presence that we are now building in the 
Baltic states, in Poland, extremely important, started late, 
unfortunately, but at least started under Obama. It is 
important that this administration, Trump administration, is 
reinforcing and continuing with that.
    But I think we need to look at other factors. Look at our 
allies, particularly those most vulnerable along the eastern 
flank and ask them what is it that you need. Air defense, 
missile defense, territorial defense? We can help you in all 
this. So I think deed, as well as word, is essential.
    Mr. Wilson. I would just add I think it is absolutely right 
to keep the pressure on our allies to do more in terms of 
defense investment, as has been a consistent bipartisan policy 
and certainly from this body. But I also think there is a 
difference in understanding that our alliances, our 
relationships are not just transactional with them. These are 
long-term relationships. In fact, we have permanent alliances. 
Understanding the value of consulting them on big decisions and 
recognizing that a third of the forces, for example, in 
Afghanistan are provided by our allies. They are in the fight 
with us. These are not transactional relationships alone.
    I also think the more that this body can help actually make 
the case to your constituents as well about how alliances are 
force multipliers for our interests and our values and not just 
a taxpayer burden, I think it is an important message to take 
to the American people as well.
    Senator Sullivan. Thank you. Very helpful.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    First, we all on this side of the dais are often prone to 
bragging about our own States, but in this case, I cannot fail 
to mention that a lot of the preparation for Montenegro's 
accession to NATO on the military and security side came 
through the partnership with the Maine National Guard. We have 
been working with Montenegro since 2006, and I am extremely 
proud of the work that our men and women have done in order to 
facilitate a very important geopolitical development. So I 
wanted to preface my remarks with a real recognition of the 
work that was done by those good people from Maine.
    I have often thought that if you woke up somebody in 1780 
in England and said when are you living, very few would have 
said, oh, the industrial revolution, or an Italian in 1500, oh, 
the renaissance, of course. In other words, we are not really 
aware of the era in which we live.
    But listening to you today has helped me to focus my 
thinking. I think we are in a new era of conflict. We talk 
about the Cold War. We talk about hot war. We are in a warm war 
with Russia that involves everything from cyber to 
disinformation to political disruption to coup attempts and 
military invasion in the Ukraine, for example. I think that is 
a very important insight that we cannot just act like this is a 
continuation of what has gone on for the past 10 years or 20 
years or 50 years.
    The second piece of that recognition--and this goes to your 
testimony--Mr. Wilson, you had a chilling observation I wrote 
down. The Kremlin has drawn its own lessons from the muted 
response of the free world. We are not treating this with the 
seriousness that it deserves.
    Mr. Bugajski, would you comment on those thoughts?
    Mr. Bugajski. Absolutely. The Kremlin knows that it cannot 
confront this directly. So it uses every available, if you 
like, soft power tool to conduct a campaign of subversion to 
divide and eventually dismantle the West. I actually put this 
in my----
    Senator King. This is an active strategy.
    Mr. Bugajski. Active strategy from the very top around the 
presidential administration. There is a strategy. We often 
heard that Putin is an opportunist. He uses opportunities to 
conduct his strategy, but there is a strategy. There is a 
purpose. There is an ambition. It does not necessarily mean 
Russia will be successful. In fact, many times, as we have seen 
in Montenegro, it has had the reverse effect.
    Senator King. But they will be if we do not respond.
    Mr. Bugajski. We have to respond. We have to respond. We 
have to not only push back, I would say even further we have to 
go more on the offensive vis-a-vis Russia, not militarily but 
in the soft power tools. Where they use disinformation, we 
should use counter-disinformation, in other words, to inform 
the Russian public more accurately what the Russian Government 
is not telling them.
    Senator King. Well, in 1999, we dismantled USIA [United 
States Information Agency], for example, a terrible 
geopolitical mistake in my opinion.
    Mr. Bugajski. Absolutely. I think VOA [Voice of America], 
RFE [Radio Free Europe], any other tool of information that we 
have either at our disposal or that we fund I think we should 
be helping. Throughout the countries that are most vulnerable, 
we should be strengthening their institutions. One of the main 
institutions is a free media. Also the social media. We have 
not touched on this, but the social media--there are 
initiatives in different parts of central eastern Europe, for 
example, the elves in Lithuania that are fighting the trolls on 
the Internet to get accurate information across. This is 
something we should be focusing on. We actually could learn 
quite a bit from the Central Europeans that are, let us say, 
the most vulnerable countries on the border of Russia.
    Senator King. I have always thought it was ironic that we 
seem to be losing the information war, and we are the people 
that invented Facebook and Hollywood.
    Mr. Bugajski. Precisely because they have subverted that 
and used it for their purposes. You know, these instruments are 
neutral. It depends on how they are used. We assume they will 
be used for the right purposes, that people would be smarter 
and get more intelligent. That is not necessarily the case.
    Senator King. In a few seconds, I want to go to a much more 
specific question. Mr. Wilson, we have been talking a lot about 
gas and energy as a geopolitical--``weapon'' is not the right 
word, but a geopolitical force. The difference is, though--and 
I wanted to ask you in more detail and maybe you can get back 
to me on the record. The differential between the price of 
pipeline-delivered gas and LNG--there is a $3 to $4 premium on 
LNG, to liquefy, ship, and de-liquefy. My question is can the 
Russians counter the LNG threat, if you will, simply by 
lowering the price of their pipeline-delivered gas, which 
currently in the U.S.--Henry Hub I think is about 3 bucks. So a 
brief answer if you would on that question. In other words, is 
LNG the weapon we think--I hate to use the word ``weapon''--the 
force that we think it might be because of the price 
differential delivered to the customer?
    Mr. Wilson. Right. It does have an impact. I have just come 
back from Hungary, which is a particular challenge with this. 
What LNG has done in the region, both psychological--American 
LNG is in the game--and commercial--Gazprom has already said in 
Hungary we will sell $1 cheaper than any offer you get in LNG 
through Kirk Island terminal----
    Senator King. Which they can do because they do not have to 
pay the shipping.
    Mr. Wilson. But that still has a real concrete effect of 
introducing market economics into pricing. Frankly, if they are 
taking Russian gas, but they have an option of others, if the 
Russians are forced to play into the market, that is where we 
win, and that is the problem we have right now.
    Senator King. People are willing to make those pretty 
substantial capital investments for LNG liquification and de-
liquification.
    Mr. Wilson. I would say it is not a simple answer. It took 
far, far too long to build the first LNG terminal to get this 
Kirk Island pipeline going. So it is not clean cut. This is 
partly why we have been focused on these infrastructure 
connections running north-south through Central and Eastern 
Europe because the Soviets built everything west-east, and the 
EU structural fund started to do east-west. There are these 
major gaps in the energy corridors running north-south through 
the eastern flank of our Alliance, and that is a problem here.
    Senator King. Thank you.
    Mr. Chairman, thank you, and I thank you for your holding 
this hearing. I think this is a very, very important hearing.
    Chairman McCain. Senator Wicker?
    Senator Wicker. I too agree. This is a profoundly important 
hearing, and I want to thank the chairman and ranking member 
for scheduling it, for taking the time to make sure it was 
thorough.
    This was a scandalous, outrageous act on the part of 
Vladimir Putin's Russia. The fact that it largely went under 
the radar screen here in the West is indicative of a lot of 
things about our foreign policy.
    Let me just make an observation or two and then perhaps you 
can comment.
    I happen to be chairman of the Helsinki Commission. That is 
the American participation in the OSCE Parliamentary Assembly. 
We just got back from Minsk, Belarus with a delegation of 11 
House and Senate Members, Republicans and Democrats, and of 
course, we in the Parliamentary Assembly are part of the larger 
diplomatic OSCE organization which only day before yesterday 
now has a complete diplomatic corps of leadership at the four 
top positions.
    If any of you want to comment about the value of OSCE, feel 
free to do so.
    The military exercise in Belarus was mentioned by one of 
you. I was told by President Lukashenko that this would be 
about 15,000 military personnel. One of you, I think, 
speculated 100,000 personnel. I was also told in no uncertain 
terms by President Lukashenko that Americans were welcomed as 
observers, and I have not yet gotten that back to the 
administration, but at least from the President, we are 
welcomed as observers. What is the significance and what do we 
need to worry about about this military exercise in Belarus?
    Then maybe I can start by recognizing Mr. Wilson because, 
Mr. Wilson, you talked about the five-part strategy, one of 
which was exposing Russian actions. I think someone today said 
let us not counter their disinformation with our version of 
disinformation. I do not think we do very well in public 
diplomacy in the United States, and part of that is that we 
resist propaganda. There is a lot to be said for letting the 
light shine on what is happening, and so if any of you could 
comment about a better way of thinking of how our Government 
can let the light of day shine internationally on what is 
coming out of Putin's Russia. So I will start with you, Mr. 
Wilson.
    Mr. Wilson. Thank you, Senator.
    Let me connect your last point to your opening with the 
Helsinki Commission. Thank you. Kudos for the Helsinki 
Commission. It plays an extraordinarily important role on many 
of the key issues.
    There is a connection to the information propaganda issue. 
Sometimes I think we lose the information war not because we do 
not have enough assets or better public diplomacy offers. It is 
because we have lost the clarity of what our purpose is and to 
be able to have a unity of message coming from leaders across 
Europe, the United States.
    What we have witnessed over the past years is the advance 
of authoritarian kleptocracy on the one hand and radical 
extremism out of ISIS on the other in a way that has come to 
challenge the sense of the free world. We have had a rough 
patch. We have had economic troubles. We have had long wars, 
and there are reasons that our populations have been 
rambunctious, if you will. But the power of the free world is 
that we can rejuvenate ourselves. We are self-correcting.
    I think the key to the information war is not the next 
budget cycle, although that is not insignificant. It is can we 
find the clarity of voice across the Atlantic on the purpose of 
how to actually adapt--yes, adapt--revitalize and defend the 
free world, and that this onslaught of authoritarian 
kleptocracy or radical extremism--that is not the future. I 
think uniformity in that messaging would actually go far more 
effective in helping us to get the propaganda wars right 
because we do not fight propaganda with propaganda. We fight it 
with who we are and what our purpose is, which is why the 
Helsinki Commission values matter.
    Just very briefly on Zapad, the observer offer is 
significant because, as far as I am aware of, the Russians 
always turn us down for observers at some of these. So that 
would be significant to take President Lukashenko up on his 
offer.
    The exercise itself is concerning because it is a tool of 
intimidation of its neighbors. It is a real exercising of 
massive troop movements to demonstrate the utility and 
potential for them to use their military modernization program. 
Frankly, I worry about what this means for Belarus' own 
sovereignty.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Let me join my colleagues in thanking you and Ranking 
Member Reed for holding this hearing. I think it is very 
important that we continue to, as the Senate Armed Services 
Committee, raise the concerns about what is happening in the 
Balkans and Russia's intent in going after Western democracies.
    Ms. Samp, I want to go back to something I understand you 
said while I was out at another hearing, and that is that 
credible deterrence is a combination of capabilities and intent 
and that we have to wary of how we are signaling intent to 
friends and adversaries.
    It is my understanding that shortly after Russian Foreign 
Minister Lavrov threatened that we must return the two dachas 
that were seized back in December as the result of Russian 
interference in our elections, that the State Department 
rescheduled a meeting that had been pulled down between Deputy 
Secretary Shannon and Deputy Foreign Minister Ryabkov. One of 
the reasons that meeting had been pulled down in St. Petersburg 
was because of our seizure of the dachas and our, so far, 
unwillingness to give those back to Russia.
    Can you talk about what it suggests that we have now 
suddenly rescheduled this meeting shortly after Russian Foreign 
Secretary Lavrov threatened us around those two dachas?
    Ms. Samp. Yes, I would be happy to because I can tell you 
it does not send a good signal, a strong signal to Russia that 
we are going to be doing what it takes to push back against 
their aggression. Quite frankly, it only emboldens them to 
further action.
    The seizure of those two facilities were part of the United 
States response in the wake of Russia's interference in our 
elections. This was something undertaken by President Obama in 
2016, along with the imposition of additional sanctions. So 
overturning those decisions I think sends a message that we are 
going to let Russia get away with it, that we want to move on, 
and that we are not going to stand up in any real way or push 
back. I think that is absolutely the wrong signal to be sending 
at the worst possible time.
    Senator Shaheen. I certainly agree with that. Can I ask, 
Mr. Wilson, do you share that view?
    Mr. Wilson. I do. I think the Russians have come to have an 
expectation that through American political transitions, they 
can gain some leverage. Water under the bridge, new team. We 
have seen this, frankly, through the past three transitions. I 
can think of very specific examples where the Russians have 
leveraged this. They will respect our coming to the table in a 
position of confidence and strength, and I think that is what 
we need to take to the table with the Russians.
    Senator Shaheen. Mr. Bugajski, do you also agree?
    Mr. Bugajski. I agree, and I would like to put in a broader 
context. I think the Russians increasingly see us as a soft 
target, not forcefully enough, not resilient enough to Russian 
pressure not only overseas but maybe even here. They are 
exploiting our own divisions, our political polarization, 
access to our media, let us say, financial greed and political 
ambition. This is exactly what they exploit in Western 
democracies, and it has come here now, and it is time to act. 
It is time to push back.
    Senator Shaheen. Thank you.
    You all have talked about the various hybrid tools that 
Russia uses, whether it is disinformation, cyber, illicit 
financing, the various tools that they have been using. In your 
opinion, which of those tools is the most difficult for us to 
respond to, and can you describe any areas where we have been 
successful? I would throw that out to any of you to respond or 
all of you.
    Ms. Samp. I want to highlight the propaganda issue not 
because we have not already spoken about it but because I do 
think it is a serious challenge. The lack of objective truth in 
our society is a serious challenge. It makes it easier for 
Russia to be able to manipulate the narrative. If we are not 
even speaking with one voice inside the United States 
Government, how much more difficult does it make it for the 
American people to understand how they should be thinking about 
and looking at Russia. So I think this discontinuity in the 
message, the lack of objective truth, and Russia's preying upon 
that weakness in our society with propaganda, disinformation, 
and influence operations is one of the harder challenges we 
face.
    I think going back to our strengths, of course, this is 
nothing that we do not have the tools to address. It is whether 
or not we have the will to address it. Our allies, our 
institutions, we have the strongest military in the world. We 
have the strongest economy in the world. We should not be 
falling victim to these sorts of tactics, and I think if we 
really leverage the advantages that we have and harness them in 
a single direction instead of multiple directions, that would 
help us to be able to manage the Russia challenge.
    Senator Shaheen. Thank you.
    I am actually out of time, but I could not agree more that 
disinformation is I think the biggest challenge we face. 
Actually, Mr. Wilson, I would argue that the Atlantic Council 
needs to do its open source summit in the United States.
    Senator Reed [presiding]. Thank you.
    On behalf of Chairman McCain, Senator Perdue, please.
    Senator Perdue. Thank you, Chair.
    I just want to thank the witnesses today for their careers 
of work in this area. This is a really important area right now 
and we need help.
    Mr. Bugajski, you have written about these frozen conflicts 
in Eastern Europe. We have seen Russia ignore territorial 
sovereignty, occupy land in Moldova, eastern Ukraine, Crimea, 
Georgia. It has been 9 years since Russian troops invaded 
Georgia, and they have created a frozen conflict. I never heard 
of that before coming to the Senate. But this is outrageous.
    I would like all of you to comment on this question. We 
have seen Russia from Murmansk to--Kaliningrad right now is 
bristling. It is a bristling military enclave. We have seen 
them in Sebastapol have access to warm waters and now in 
Latakia and Tortus in Syria build permanent installations 
circling Eastern Europe. I mean, it looks to me like--from a 
tactical standpoint it is pretty obvious what they are doing.
    My questions, though, are very specific about these frozen 
conflicts. What is NATO doing? What are we doing? What should 
we be doing to make sure that the Georgia conflict does not 
remain frozen and that the Ukraine/Crimea conflict does not 
become a frozen conflict?
    Mr. Bugajski. Excellent question. Thank you, Senator.
    I would say this. We need to understand what Russia is up 
to with these so-called frozen conflicts, or unresolved 
conflicts. The idea is to freeze the state within which the 
conflict is taking place, and we see this clearly in the case 
of Ukraine and Georgia to prevent these countries from moving 
into NATO; in the Moldovan case, to prevent Moldova from moving 
into the European Union; in the case of Nagorno-Karabakh, 
keeping both Azerbaijan and Armenia dependent on Russia to try 
and resolve the conflict. We can be more active in some of 
the--particularly I would say in Georgia and between Armenia 
and Azerbaijan. In the case of Ukraine, I would say it is very 
important for the Ukrainian Government to be able to prevent 
Russia from expanding its territorial hold on Ukraine and using 
the frozen conflict as a tool of pressure to prevent Ukraine 
from moving into Western institutions.
    Senator Perdue. I am sorry. Should the United States arm 
the Ukraine with offensive weapons?
    Mr. Bugajski. Absolutely. I would give them any weapons 
they want. In a way, you could say Ukraine is a test for our 
resolve in stopping Putin. If Putin is successful in Ukraine, 
can you imagine the ambition that will be raised? If he is 
stopped in Ukraine, that will not only stop him from meddling 
in other countries, but could have a blowback inside Russia as 
well.
    Ms. Samp. I would just add that I think Putin has already 
been successful in Ukraine. I do not think his intention was 
ever to take Kiev. I think it was to destabilize just enough to 
make Ukraine an unattractive partner for NATO and for the West. 
How do we support these governments? I support arming them not 
quite to giving them any weapon they would want, but they do 
need lethal assistance.
    A bigger challenge, though, is making sure the part of the 
country that has not fallen under Russian control continues to 
integrate with the West, continues on its path of anti-
corruption and transparency measures to be the best model of 
governance it can be so that the part of the country that is 
inside of a frozen conflict sort of falls under the weight of 
its own corruption and problems and challenges. Now you have 
sort of the other half--three-fourths of a country that is 
successful and that creates its own magnetism and draw.
    Then finally, the most probably important piece of the 
equation is patience. None of these frozen conflicts are going 
to be resolved in the near future. But having a clear non-
recognition policy which is tied up in our sanctions I think is 
important. We had a non-recognition policy with the Baltic 
states for 50 years, and that was very important to their 
prospects for one day integrating with the West.
    Senator Perdue. Thank you.
    Mr. Wilson?
    Mr. Wilson. Thank you, Senator. I would just add that the 
frozen conflicts are a means for the Russians to take out a 
long-term insurance policy that these countries will never be 
able to join NATO or the EU because they have been occupied. 
This is their objective. They do not need to depend on the word 
or commitment of one political leader that may come or go with 
an election. It is their insurance policy.
    The status quo in these endless negotiations, five plus two 
for Transnistria, the Geneva process in Georgia, Minsk with 
Ukraine--suit the Russian interests and get us trapped in a 
kabuki game. Many of our allies are quite pleased to have a 
process at least ongoing, but I actually do not think they 
serve our interests. So I think we need to change the equation. 
In part, we told the Russians or the Russians read our own 
doctrines that say if there is occupied territory in a country, 
it cannot join our Alliance. That is in NATO study in 1996 as 
we were beginning our enlargement process to incentivize 
nations, essentially Europe, to resolve their borders. It made 
sense at that time.
    I think we should be a little bit more brazen and change 
that and say Russian occupation will not stand as a permanent 
block on nations joining the EU and NATO even if that means the 
jurisdiction of the EU or NATO may not apply to those 
territories. Simply the rhetorical switch of that is how you 
begin to change Russia's calculations.
    I do agree with my colleagues on I think it is important 
that we give them the strength of a porcupine defense and help 
arm them in a way that it makes the costs too high for the 
Russians to invade.
    Senator Perdue. Thank you all.
    Thank you, Chair.
    Senator Reed. Thank you, Senator.
    Senator Peters, please, on behalf of the chairman.
    Senator Peters. Thank you, Senator Reed.
    Thank you to each of our panelists today for some excellent 
testimony, very thought-provoking testimony.
    I serve as the co-chair of the Senate Albanian Issues 
Caucus with my colleague Senator Ernst, who you heard from 
earlier. I am certainly very proud to represent a very dynamic, 
very active Albanian American community in Michigan, many of 
which have very strong roots to Montenegro. So I am sure they 
are watching and following the discussion here today. But they 
also have roots in Kosovo and in Macedonia as well. I know 
Senator Ernst brought up the issue of Kosovo. So I would like 
to talk a little bit about what we are seeing in Macedonia.
    Mr. Bugajski, you suggested in your opening statement the 
clashes between Albanians and Macedonians may be engineered by 
Moscow as part of its efforts to destabilize the region, as we 
have been discussing today, test NATO resolve, which is a huge 
issue, and distract attention from their other interventions.
    I understand that ethnic Albanians in Macedonia have been 
frustrated with government policy and political polarization 
and are demanding greater rights for their community in 
Macedonia. In turn, Macedonian politics has been increasingly 
disruptive, and there is a growing nationalist movement as well 
that threatens to fracture the society and perhaps weaken 
government structures.
    If you could provide some more context to us on the 
tensions between Albanians and Macedonians, the current level 
of severity of that tension, and expand on possible Russian 
involvement fostering that.
    Mr. Bugajski. Thank you very much, Senator.
    Macedonia is stuck because of its name dispute with Greece. 
A country that has actually qualified for NATO cannot make any 
progress because of the fact that it cannot resolve that name 
dispute. That is having an effect on internal politics and 
inter-ethnic relations in Macedonia because, as you know from 
your constituents, Albanians, being probably some of the most 
pro-American and pro-NATO populations anywhere in Europe, would 
like to follow Albania in pulling Macedonia into NATO as well.
    The longer that conflict continues, that standoff 
continues, the more that nationalists will exploit them. We saw 
this during the previous administration that nationalism was 
manipulated in an international but also a domestic context.
    Macedonia now has a new chance. It has a new government. It 
is a coalition government with an Albanian partner. I think it 
is very important--and I know Vice President Pence has talked 
to Zaev--for the United States to become more closely involved 
in resolving this name dispute, or at least getting Macedonia 
into NATO even if that dispute is not finally resolved. That 
would help to if not settle at least to pacify any 
possibilities for inter-ethnic conflicts within Macedonia.
    Senator Peters. You mentioned the strong relationship 
between Albania and the United States. Do you want to elaborate 
on how important our relationship with Albania is to securing 
that region?
    Mr. Bugajski. Albania is one of the key countries in the 
region. Let us say it is still a developing democracy. It is a 
NATO member. It contributes to security. It is very pro-
American. It sends a very positive message to other Albanian 
communities in terms of their Western and NATO aspirations.
    The problems, of course, they have internally are problems 
common to many Balkan states, lack of judicial reform, 
corruption, poor governance in some places. Again, these are 
areas where we have to, let us say, not cut our funding but 
help them to achieve the standards of other European countries, 
not only in Albania but elsewhere. As I said earlier, there is 
not a more pro-American population--maybe in Kosovo. But we had 
a strong role in helping to create--President Berisha, as you 
know, in creating the first Albania and several recent 
presidents in creating--consolidating Kosovo as a state, and 
they remember that and they will always remember that.
    The Albanian population, I would say, in the Balkans is one 
of the key factors that we need to keep our eye on and to make 
sure that any kind of program for greater Albania is resisted, 
but the Albanians are integrated and empowered in each of the 
countries that should be part of NATO, including, as we have 
said, Macedonia and Montenegro, which has already entered.
    Senator Peters. Well, thank you.
    I am running out of time. So I am not going to have an 
opportunity to get an answer to this question, but I will 
submit it to you and hopefully we will hear back.
    I just recently returned from a trip to Latvia and 
Lithuania, folks who have been dealing with miscommunication 
and propaganda from Russian media. In fact, when I was there at 
the NATO STRATCOM [Strategic Command], they showed me a 
Facebook post that the Russians were sending around the country 
that the Americans had apparently bombed a building in Latvia. 
It had pictures of a burning building, but of course, did not 
exist, but nevertheless, was being used to create anti-American 
tensions.
    I know, however, that the Baltic states have also been 
pretty effective in pushing back against some of that 
misinformation. I met with a group of journalists who are 
working actively to get folks to question what they see and 
what they hear.
    But I would certainly love to have each of your assessments 
as to lessons learned in the Baltics that may apply to us 
broadly. We are out of time, but would hope that you could 
respond in written form to me. I appreciate it. Thank you.
    Senator Reed. Thank you, Senator Peters.
    On behalf of the chairman, Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    I want to thank you all for your work for many decades.
    It looks like I am in final position here. So I just want 
to start by summarizing where I think we are from this. Russia 
is actively working to destabilize countries along its borders 
and to undermine European Union and NATO. They are doing it 
through indirect tactics like enabling separatist forces and 
disseminating propaganda and fake news, as well as launching 
cyberattacks against the American electoral system and others 
in Europe.
    Now, all of you have said this requires a strong response, 
and last month, the Senate tried to do something about it by 
passing a bill that both expands sanctions and ensures 
enforcement of existing sanctions against Russia. I know you 
touched on this in your testimony, but I just want to draw a 
line under it because I think it is so important right now.
    Ms. Samp and Mr. Wilson, would these new Russia sanctions 
passed by the Senate be helpful or harmful in responding to 
Russian aggression? Ms. Samp?
    Ms. Samp. Thank you.
    I think they would be extremely helpful. We have to do more 
to change Russia's risk calculus. We are all saying the same 
thing here, Democrats and Republicans alike. Ultimately, this 
comes down to how serious do we want to be about Russia's 
interference in our election? If this was a fundamental assault 
on our democracy, then we need to be pretty serious. The Russia 
Sanctions Act is a monumental piece of legislation that says to 
Russia, enough. You are not going to get away with it anymore. 
I know that the longer we wait to act, the more emboldened 
Russia is going to feel. The Germans have elections coming up. 
I do not think we want them feeling emboldened going into the 
fall or even into 2018 in our own society.
    So I think the House should take immediate action to pass 
the bill as is. I think any efforts to water it down or delay 
it should be considered a dereliction of duty on their part.
    Senator Warren. Thank you. That is pretty strong, and I 
appreciate that and agree with it.
    Mr. Wilson, would you like to add anything?
    Mr. Wilson. Yes. I very much agree that it is 
extraordinarily helpful. I am in Europe a lot, and one of the 
things that is coming through is despite sometimes the nature 
of our partisan debate and lack of clarity in messaging, it is 
coming through loud and clear, an extraordinarily strong 
bipartisan consensus in the United States on standing up to 
Russian revisionism and aggression. That is coming through loud 
and clear. Essentially the vote for Montenegro, 97 to 2, was 
whether the United States would leave a vacuum in the Balkans 
and stand up to Russia. The vote on the sanctions--every one we 
speak to, when we were traveling through Europe, watches that 
in great detail and sees it is very helpful to get done.
    We do need to recognize that Russia is doing this in part 
because Putin is insecure at home. He does want to demonize the 
West as a threat to Russia, and so he will use what we do to 
play up the nationalist card at home, and so we need to combine 
raising the costs with Russia with a real strength of 
confidence in our own democracies and democratic institutions 
because that is actually what he is afraid of.
    Senator Warren. I very much appreciate your comments on 
this, and you are right. This was strongly bipartisan. I was 
one of the cosponsors. Many others were, both sides of the 
aisle.
    The fact that the House is dragging its feet is not only 
bad for us here at home, but as you say, this sends a terrible 
signal both to Europe and to NATO and to Russia, and I think it 
is time for the House just to do this, to pass this bill and 
for the President to sign it into law.
    I am really concerned, after the President's behavior at 
the G20, that we cannot keep waiting for the President of the 
United States to take leadership on this. I think this is a 
place where Congress has to step up, and we have really got to 
put it out there and get this bill passed and put it on the 
President's desk and urge the President to sign it.
    Did you want to add here?
    Mr. Bugajski. I just want to add one thing. We keep talking 
about information and disinformation. I think it is very 
important that we underscore why sanctions are important, and I 
do not think we have done enough of that. I think a lot of 
times people will say--in fact, the Russians are saying, well, 
the sanctions do not really affect us. You should lift them 
because they are actually just spoiling relations. But they are 
having an impact on the oligarchs, the companies that are 
closely tied to the Kremlin that engage in some of these human 
rights and subversive activities abroad. We need to be a little 
bit clear in getting the information out on why sanctions are 
important and why this bill is now extremely important.
    Senator Warren. I very embrace your point on this. You 
know, we had hearings on this over in the Banking Committee, 
and one of the points raised there is it does have an economic 
impact. But as you all say, it also has a powerful political 
impact.
    So I think we speak with one voice on both sides of the 
aisle. The House needs to pass the sanctions bill now, and we 
need to get it over to the President to be signed.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator.
    On behalf of Chairman McCain, let me thank you for your 
excellence testimony. We look forward to working with you as we 
go forward on these issues and many more. But, again, thank you 
very much.
    On behalf of the chairman, let me call this hearing 
adjourned.
    [Whereupon, at 11:48 a.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
